AUDIT OF THE FEDERAL BUREAU OF INVESTIGATION’S

 AND THE NATIONAL SECURITY DIVISION’S EFFORTS

    TO COORDINATE AND ADDRESS TERRORIST

                  FINANCING



           U.S. Department of Justice

         Office of the Inspector General

                  Audit Division


              Audit Report 13-17

                 March 2013

  AUDIT OF THE FEDERAL BUREAU OF INVESTIGATION’S

  AND THE NATIONAL SECURITY DIVISION’S EFFORTS TO

   COORDINATE AND ADDRESS TERRORIST FINANCING


                             EXECUTIVE SUMMARY


      Our audit assessed programs implemented by the Federal Bureau of
Investigation (FBI) and National Security Division (NSD) to identify,
investigate, and prosecute terrorist financing. We found that the FBI and
NSD have mechanisms to ensure terrorist financing-related information is
shared and coordinated with each other and with other relevant law
enforcement organizations and intelligence agencies. However, we found
that the FBI could improve some case management practices associated
with investigating terrorist financing.

      In August 2005, the FBI Terrorist Financing Operations Section (TFOS)
recommended that FBI field offices consider the use, where appropriate, of
six basic financial-related investigative techniques when conducting
counterterrorism investigations. 1 According to TFOS, these investigative
techniques are: (1) FBI database inquiries, (2) FinCEN data inquiries,
(3) government-wide database inquiries, (4) public and commercial
database inquiries, (5) credit history checks, and (6) the identification and
review of bank account activity. 2

       The FBI directed each field office to focus on financial information in
counterterrorism cases and establish a financial investigative sub-file for all
counterterrorism investigations. Also, each FBI field office was instructed to
designate a Terrorist Financing Coordinator to serve as a liaison between the
field offices and the Terrorist Financing Operations Section.

      The case files we reviewed did not always contain documentation of
the use of financial-related investigative techniques or for not using
techniques when it appeared unnecessary to do so. According to the FBI,
Special Agents are not required to document each action it deems
unnecessary to take and doing so may be unduly burdensome and
       1
       The term “strong consideration” was contained in an August 2005 electronic
communication that directed the financial focus for all counterterrorism investigations.
       2
         The Attorney General Guidelines for FBI Domestic Operations and the Domestic
Investigations and Operations Guide call for the FBI to employ the least intrusive means
that do not otherwise compromise FBI operations. Search warrants, wiretaps, and
undercover operations are very intrusive. By contrast, investigative methods with limited
procedural requirements, such as checks of government and commercial data bases and
communication with established sources, are less intrusive.

                                              i
inefficient. However, in our judgment better-supported case files enable
succeeding Special Agents and FBI managers to determine whether a given
counterterrorism investigation included an appropriate financial focus. In
addition, clearly documenting the use of financial-related investigative
techniques or valid reasons for not using these techniques is consistent with
FBI investigative and case-file management requirements. FBI field offices
are required to ensure that all reasonable investigative techniques have
been exploited during each terrorism investigation. When closing such
investigations, field office staff affirms that they have exhausted reasonable
and practical intelligence collection methods and that investigative methods
and techniques initiated have been completed or discontinued.

      We determined that the FBI documented the use of or provided a valid
reason for not using FBI database inquiries for 100 percent of the case files
reviewed. For the remaining five techniques, we or the FBI identified
documentation of the use of or valid reasons for not using the techniques in
most but not all sampled cases.

       The FBI issued a directive to focus on the financial aspects in
counterterrorism cases by creating a specific sub-file for all counterterrorism
investigations, but we found that Special Agents did not always adhere to
this directive.

       We also found that during the review period Terrorist Financing
Coordinators did not routinely review counterterrorism cases to ensure the
field offices implemented the financial focus directive for counterterrorism
investigations. We believe it is important that all criminal and
counterterrorism cases be reviewed for a potential nexus to terrorist
financing so that FBI management can seek to achieve a consistent
approach to applying financial-related investigative techniques. Our review
found that the coordinators did not always perform their duties as intended
by the FBI, performed unrelated collateral duties, and were not always
selected in accordance with TFOS guidance.

       The Department considers terrorist financing-related matters to be a
subset of its counterterrorism investigations. Our audit found that the FBI
and NSD share information and coordinate with federal, state, local, and
international entities through programs and initiatives that address terrorism
in its entirety and that include matters involving terrorist financing. We
believe this approach is appropriate and provides better opportunities to
dismantle and disrupt the entire structure of a terrorist organization.




                                       ii
       We make eight recommendations to assist the FBI in appropriately
identifying and investigating terrorism-related financing activities.

      This report provides the full results of our review of the FBI’s and
NSD’s implementation of programs to identify, investigate, and prosecute
terrorist financing and both agencies’ efforts to coordinate and share
information to combat terrorist financing.




                                      iii
                                 TABLE OF CONTENTS


INTRODUCTION ................................................................................ 1

  Background ................................................................................... 1

  The FBI’s Counterterrorism Organization ...................................... 3

  The FBI’s Efforts to Address Terrorist Financing............................ 4

   Terrorist Financing Coordinator Initiative ...........................................5

      Mandatory Financial Investigative Sub-file .........................................5

 The NSD’s Counterterrorism Organization .....................................                    5

 The NSD’s Efforts to Address Terrorist Financing ..........................                      7

 Prior Audits and Reviews ...............................................................         7

OIG FINDINGS AND RECOMMENDATIONS ........................................                         9

I.	    THE FBI’s IMPLEMENTATION OF PROGRAMS TO IDENTIFY,

       INVESTIGATE, AND PROSECUTE TERRORIST FINANCING

       ACTIVITIES ............................................................................... 9

  Support for the Utilization of Terrorist Financing Techniques ........ 9

   Cases Designated Specifically as Terrorist Financing Cases................. 15

      Improvements Needed to Support the Use of Financial-Related

      Investigative Techniques................................................................ 16

  Mandatory Financial Investigative Sub-file.................................. 18

  Special Agents’ Training and Background .................................... 21

  Terrorist Financing Coordinator Position ..................................... 21

   Duties and Responsibilities ............................................................. 22

      Background and Selection of Coordinators ....................................... 23

      Training Received and Provided ...................................................... 25

      Provision of Coordination and Technical Assistance............................ 27

      Review of Counterterrorism and Criminal Cases ................................ 28

      Liaison with the Financial Community .............................................. 29

      FBI-Proposed Changes to the Terrorist Financing

      Coordinator Initiative..................................................................... 30

  TFOS Involvement ....................................................................... 31

   Lack of Communication on Case Management................................... 32

  TFOS Restructure......................................................................... 33

  Conclusion ................................................................................... 34

  Recommendations ....................................................................... 35

II.	 THE FBI’S AND NSD’S COORDINATION AND SHARING

     EFFORTS REGARDING TERRORIST FINANCING

     OPERATIONS ........................................................................... 36

  The Department’s Counterterrorism Approach ............................ 36

  FBI Coordination and Sharing Efforts .......................................... 36

   TFOS Coordination with Other Agencies ........................................... 37

     TFOS International Training............................................................ 38

     Counterterrorism Squad on Joint Terrorism Task Force ...................... 38

     Immigration and Customs Enforcement ........................................... 40

  NSD Coordination and Sharing Efforts ......................................... 41

   Anti-Terrorism Advisory Council ...................................................... 41

     Designation of Terrorist Groups ...................................................... 42

  FBI and NSD Joint Coordination and Sharing Efforts.................... 44

   Coordination with State and Local Agencies...................................... 44

     Terrorism Prosecutions .................................................................. 44

 Conclusion ................................................................................... 45

STATEMENT ON INTERNAL CONTROLS............................................ 46

STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS...... 47

APPENDIX I           AUDIT OBJECTIVES, SCOPE, and METHODOLOGY.... 48

APPENDIX II          ABBREVIATIONS ..................................................... 51

APPENDIX III FBI LEGAL ATTACHÉ OFFICES ................................. 52

APPENDIX IV          DESIGNATED FOREIGN TERRORIST

                     ORGANIZATIONS .................................................... 53

APPENDIX V           TERRORIST STATUES APPLICABLE TO FINANCIAL

                     TRANSACTIONS, MONEY LAUNDERING, MATERIAL

                     SUPPORT TO TERRORISTS, AND TERRORIST                        

                     ORGANIZATIONS .................................................... 54

APPENDIX VI          THE FEDERAL BUREAU OF INVESTIGATION'S

                     RESPONSE TO THE DRAFT REPORT ......................... 55

APPENDIX VII OFFICE OF THE INSPECTOR GENERAL ANALYSIS

                     AND SUMMARY OF ACTIONS NESSARY TO CLOSE

                     THE REPORT............................................................ 58

                                  INTRODUCTION

       The Department of Justice‘s (Department) Strategic Plan identifies
terrorism as our country’s most significant national threat, and the plan’s
first goal is to “Prevent Terrorism and Promote National Security.” In
accordance with the strategic plan, the Department’s first priority is to
protect the United States against terrorism by preventing, disrupting, and
defeating terrorist operations before they occur. As part of this effort, the
Department works to identify, track, and dismantle financial structures that
support terrorist groups.

Background

      To operate, terrorist groups must have the resources to raise funds
and the means to launder funds. Whether the funding is minimal or
substantial, terrorist financing activities leave a financial trail that can be
tracked.

       Terrorist financing is referred to by American law enforcement as the
act of knowingly providing something of value to persons or groups engaged
in terrorist activity. 1 Terrorist groups move funds using the formal banking
system; informal value-transfer systems; “Hawalas” or “Hundis”; and the
physical smuggling of cash, gold, and other valuables. 2

       Terrorist financing may involve funds that, prior to remittance, are
unconnected to any illegal activity. 3 Terrorist groups may obtain funds from
seemingly legitimate sources such as business profits, donations, community
solicitation, and other fundraising initiatives. Individuals involved with the
funding source may not know the illegal end of the funds provided. A




       1
         Since 1994, terrorist financing has been officially recognized as a crime with the
enactment of the first material support statute, 18 U.S.C. § 2339A. Material support
includes humanitarian aid, training, expert advice, or services in almost any form. Prior to
1994, terrorist financing could only be addressed through money laundering prosecutions.
       2
          Informal value-transfer systems refers to any system, mechanism, or network of
people that receive money for the purpose of making the funds or an equivalent value
payable to a third party in another geographic location. Hawalas, which are sometimes
referred to as Hundis, are a system of money transfer whereby customers entrust money to
an individual who facilitates the money movement worldwide through personal connections
or legitimate bank accounts with a minimal paper trail.
       3
           Remittance involves the sending of money from one place to another.


                                              1

common example of terrorist financing occurs when an individual donates
funds to charities that serve as “fronts” for terrorist organizations. 4

       Terrorist groups may also obtain funds derived from criminal activities
that include kidnapping, extortion, smuggling, and fraud. Terrorist groups
use techniques similar to money laundering to evade authorities and to
protect the identity of their sources and the beneficiaries of their funds.
Financial transactions associated with terrorist financing tend to be in
smaller amounts than those associated with money laundering. 5 Money
laundering differs from terrorist financing in that it involves the act of
turning “dirty” money into “clean” money. With money laundering, criminals
conceal or disguise the nature, the location, the source, the ownership, or
the control of the proceeds of specified unlawful activity.

       Terrorist operations may be inexpensive and financing such operations
is often covered by the larger financial resources allocated for the terrorist
group’s political and social activities, which makes it more difficult to
uncover the illegal nexus. The September 2001 attacks on the United States
cost about $500,000, according to the National Commission on Terrorist
Attacks, and according to press reports, the 2010 plot to bomb Times
Square cost less than $7,000.

       Within the Department, the Federal Bureau of Investigation (FBI)
takes the lead in conducting counterterrorism investigations, of which
terrorist financing investigations are a subset. The National Security Division
(NSD) takes the lead in coordinating national security investigations,
including terrorist financing investigations. The USA PATRIOT Improvement
and Reauthorization Act created the NSD in March 2006 to combat terrorism
and other threats to national security through coordination and unity of
purpose between prosecutors, law enforcement agencies, attorneys, and the
intelligence community. 6



       4
          A front serves as a cover or disguise for some other activity, especially one of a
secret or illegal nature.
       5
          Money laundering is the conducting or attempt to conduct a financial transaction
that involves the proceeds or property from some form of unlawful activity.
       6
          The USA PATRIOT Improvement and Reauthorization Act of 2005 (Act) made
permanent most of the surveillance provisions of the 2001 USA PATRIOT Act. The Act also
provided a 4-year extension of provisions granting roving surveillance authority under the
Foreign Intelligence Surveillance Act of 1978 and authorized the Director of the FBI to apply
for a court order for the production of records for foreign intelligence and international
terrorism investigations.


                                               2

The FBI’s Counterterrorism Organization

      Terrorist financing enforcement is critical in the Department’s efforts to
address terrorism. Through its National Security Branch, the FBI addresses
counterterrorism through intelligence and operations to support global
counterterrorism activities. The National Security Branch’s Counterterrorism
Division (CTD) supports these objectives by, among other things, collecting,
reporting, and analyzing critical information. 7 By combining intelligence and
operations, the CTD seeks to mitigate threats and ensure an effective crisis
response. The CTD consists of four branches, which are Operations I,
Operations II, Analysis, and Operational Support. The Terrorist Financing
Operations Section (TFOS) is a component of Operations Branch II.

       After the attacks of September 11, 2001, the FBI and the Department
identified a critical need for a more comprehensive and centralized approach
to terrorist financial matters. Consequently, the FBI established an
interagency Terrorism Financing Review Group (TFRG) to provide a
comprehensive analysis of financial evidence obtained during the
September 11 investigation and track the source and movement of funds
within and outside the United States. Financial evidence established direct
links among the hijackers and assisted in the identification of
co-conspirators. Comprised of representatives from the Department, the
FBI’s Financial Crime and Counterterrorism Divisions, the Internal Revenue
Service’s Criminal Investigation Division, the U.S. Customs Service, the
 Department of the Treasury’s Financial Crimes Enforcement Network
(FinCEN) and Office of Foreign Asset Control, U.S. Postal Inspection Service,
U.S. Secret Service, and Inspector General community, the TFRG combined
relevant databases, unique skills, and resources. 8

     The FBI restructured the TFRG, renamed it the Terrorist Financing
Operations Section, and placed it within the CTD’s Operations Branch II. 9
The mission of TFOS is to identify, investigate, disrupt, and dismantle all

       7
         The CTD’s mission is to prevent, disrupt, and defeat terrorist operations before
they occur; to pursue the appropriate sanctions for those who have conducted, aided, and
abetted those engaged in terrorist acts; and to provide crisis management following acts of
terrorism against the United States and its interests.
       8
        In March 2003, the U.S. Customs Service transferred to the Department of
Homeland Security and became the U.S. Customs and Border Protection.
       9
           Operations Branch I of the CTD supports, coordinates, and manages
terrorist-related investigations through its two sections, which are the International
Terrorism Operations Section (ITOS) I and ITOS II. ITOS staff members provide oversight
of counterterrorism investigations within the continental United States (ITOS I) and in
extraterritorial locations (ITOS II).


                                             3

terrorist financial and fundraising activities. TFOS coordinates efforts to
track and shut down terrorist financing and to exploit financing information
in an effort to identify previously unknown terrorist cells and to recognize
potential activity and planning. TFOS works to build on the FBI’s expertise
in conducting complex criminal financial investigations and long-established
relationships with the financial service sector.

      Through its headquarters-based staff, TFOS:

      •	 conducts financial analysis of terrorist suspects and their financial
         support structures in the United States and abroad;

      •	 coordinates joint participation, liaison, and outreach efforts to
         appropriately utilize financial information resources of private
         sector, government, and foreign entities;

      •	 uses FBI and Legal Attaché expertise to exploit financial information
         from foreign law enforcement, including the overseas deployment
         of TFOS personnel;

      •	 works jointly with the intelligence community to fully exploit
         intelligence to further terrorists’ investigations;

      •	 works jointly with prosecutors, law enforcement, and regulatory
         communities; and

      •	 develops predictive models and conducts data analysis to identify
         previously unknown terrorist suspects.

     At the time of the review, TFOS was organized into six units. In
December 2010, the FBI reorganized TFOS so it could more effectively
accomplish its mission by integrating strategic intelligence, developing
processes to enhance counterterrorism investigations, and initiating
operational program management for terrorist financing investigations.

The FBI’s Efforts to Address Terrorist Financing

      The FBI addresses terrorist financing through TFOS, national and
international working groups, and coordination with other federal agencies
such as the Departments of State and Defense. The Counterterrorism
Division, along with TFOS, seeks to enhance the FBI’s mission to address
terrorist financing by providing directives and resources and by ensuring that
appropriate consideration is given to the financial aspects of all
counterterrorism investigations. Through TFOS, the FBI established

                                       4

programs and initiatives that directly involved the field offices and Special
Agents in an effort to ensure that all counterterrorism investigations included
a consideration of financial matters.

Terrorist Financing Coordinator Initiative

       In April 2002, the FBI established the Terrorist Financing Coordinator
(Coordinator) position in each field office, to serve as a liaison between field
offices and TFOS. The FBI directed the field offices to use their Coordinators
for assistance and provided guidance to the Coordinators to ensure that
counterterrorism investigations included a financial component.

Mandatory Financial Investigative Sub-file

      In August 2005, TFOS directed that field offices establish a financial
focus for each preliminary and full counterterrorism investigation. To
accomplish this, the FBI directed its field offices to establish a financial
investigative sub-file within each counterterrorism case file that includes the
financial-related investigative techniques used during these investigations.

       At the same time, TFOS established six financial-related investigative
techniques that should be given “strong consideration” when conducting all
counterterrorism investigative matters. 10 According to TFOS, these
investigative techniques are: (1) FBI database inquiries, (2) FinCEN data
inquiries, (3) government-wide database inquiries, (4) public and
commercial database inquiries, (5) credit history checks, and (6) the
identification and review of bank account activity.

The NSD’s Counterterrorism Organization

      The NSD seeks to ensure that the national security-related activities of
the United States are consistent with relevant law. The NSD also oversees
terrorism investigations and prosecutions, handles counterespionage cases,
obtains court authorization for the collection of foreign intelligence under the
Foreign Intelligence Surveillance Act, and conducts oversight of intelligence
agency compliance with certain national security legal requirements. 11


       10
        The term “strong consideration” was contained in the August 2005 electronic
communication that directed the financial focus for all counterterrorism investigations.
       11
           The Foreign Intelligence Surveillance Act established procedures for requesting
judicial authorization for foreign intelligence surveillance and created the Foreign
Intelligence Surveillance Court, 50 U.S.C. § 1801. The act was intended to increase the
United States’ counterintelligence separate from ordinary law enforcement surveillance.


                                              5

      The NSD’s Counterterrorism Section provides assistance with
investigations and prosecutions to prevent and disrupt terrorist acts. The
Counterterrorism Section is the NSD’s predominant entity for addressing
terrorist financing. The Counterterrorism Section coordinates the
Department’s efforts to combat terrorist financing; collaborates with the FBI
and the U.S. Attorney’s Offices regarding its terrorism investigations; serves
as co-counsel with and provides subject matter expertise and guidance to
the U.S. Attorneys’ Offices in terrorism prosecutions; reviews indictments,
search warrants, and other types of process, and makes recommendations
for authorization; works with international counterparts on terrorism
investigations and prosecutions; and coordinates with state and local law
enforcement.

      The Counterespionage Section prosecutes and reviews cases that
involve national security, coordinates cases that involve classified
information of the federal government, and oversees the Foreign Agents
Registration Act, which requires individuals and companies that act as
foreign agents to make certain periodic disclosures. 12

      The Office of Intelligence serves as the federal government’s
representative before the Foreign Intelligence Surveillance Court and
oversees the FBI and other agencies’ national security activities to ensure
adherence to the Constitution and federal law.

      The Office of Law and Policy provides legal assistance and advice on
national security law and policy; and oversees the development,
coordination, and implementation of intelligence and national security within
the Department. This office also serves as the Department’s point of contact
on national security policy to Congress and other federal agencies and
assists Congress with developing national security legislation.

      The Office of Justice for Victims of Overseas Terrorism conducts
outreach to U.S. victims of international terrorism. This office monitors the
investigation and prosecution of the perpetrators of overseas terrorist
attacks, responds to congressional and citizen inquiries about the
Department’s efforts, and works with other Department agencies to ensure
that the rights of victims and their families are respected.



       12
           The Foreign Agents Registration Act requires persons acting as agents of foreign
principals in a political or quasi-political capacity to make periodic public disclosure of their
relationship with the foreign principal, as well as activities, receipts, and disbursements in
support of those activities, 22 U.S.C § 611.


                                                6

The NSD’s Efforts to Address Terrorist Financing

        The U.S. Attorneys’ Offices and the NSD prosecute the crimes related
to terrorist financing. The U.S. Attorneys’ Offices must notify the NSD when
initiating international terrorism investigations and obtain the NSD’s
approval before using certain investigative tools or bringing charges. The
NSD coordinates with federal, state, and local agencies to provide advice and
counsel on terrorism cases. It provides training, assists in the processing of
Foreign Intelligence Surveillance Act warrants and other information
collection tools, and oversees the production of court document
requests that involve classified materials.

      The NSD assists the Departments of State and the Treasury in
designating individuals, groups, or entities as terrorists to freeze their assets
or property to prevent the commission of future terrorist acts.

Prior Audits and Reviews

      In November 2003, the Government Accountability Office (GAO)
issued a report on terrorist financing that concluded U.S. agencies should
systematically assess terrorists’ use of alternative financing mechanisms. 13
The GAO review assessed the use of alternative financing mechanisms to
earn, move, and store assets. The report stated that the FBI did not
systematically collect and analyze data on alternative financing mechanisms.
The report concluded that the lack of such data hindered the FBI from
conducting systemic analysis of trends and patterns that focus on these
mechanisms. Without such an assessment, the FBI did not have analyses
that could aid in evaluating risk and prioritizing efforts.

       In this report, the GAO recommended that the Director of the FBI, in
consultation with relevant U.S. government agencies, systematically collect
and analyze information involving terrorists’ use of alternative financing
mechanisms. In response to GAO’s recommendation, the FBI published
intelligence gathering requirements on its intranet website that included
collection requirements for alternative financing mechanisms. As a direct
response to GAO’s recommendation, the FBI established the Program
Management and Coordination Unit within TFOS. 14 In addition, the FBI’s
      13
         U.S. Government Accountability Office (GAO), Terrorist Financing, U.S. Agencies
Should Systematically Assess Terrorists’ Use of Alternative Financing Mechanisms,
GAO-04-163 (November 2003).
      14
         The Program Management and Coordination Unit serves as the administrative
component of TFOS and is responsible for the management of the FBI’s Terrorist Financing
Coordinator Initiative.


                                            7

Inspection Division revised its annual field office report to include terrorist
financing-related issues.

      In September 2009, the GAO submitted a report to Congress on the
Department of the Treasury’s efforts to combat illicit financing. 15 The Office
of Terrorism and Financial Intelligence within the Department of the
Treasury cited strong collaboration in information sharing between the
Treasury’s Financial Crimes Enforcement Network and the Department of
Justice. However, the GAO found that officials of the Departments of Justice
and State reported declining collaboration and unclear mechanisms to
enhance or sustain the relationship. The Treasury’s Office of Terrorism and
Financial Intelligence stated in its response that they would redouble some
of their current efforts and undertake some new efforts.




       15
           U.S. GAO, Combating Illicit Financing, Treasury’s Office of Terrorism and Financial
Intelligence Could Manage More Effectively to Achieve GAO-09-794 (September 2009).


                                              8

            OIG FINDINGS AND RECOMMENDATIONS


I.	   THE FBI’s IMPLEMENTATION OF PROGRAMS TO IDENTIFY,
      INVESTIGATE, AND PROSECUTE TERRORIST FINANCING
      ACTIVITIES

      The FBI advised Special Agents to strongly consider the use
      of, where appropriate, financial-related techniques as a
      complement to other investigative techniques. In addition,
      to help provide a necessary degree of focus and organization
      to the investigation, the FBI required the creation of a
      financial-investigative sub-file for all counterterrorism cases.
      We evaluated these terrorist financing initiatives
      implemented by the FBI and found that the FBI could
      strengthen its terrorist financing program through improved
      case management practices. The case files we reviewed did
      not always contain documentation of the use of financial-
      related investigative techniques or for not using techniques
      when it appeared unnecessary to do so. We also found
      Special Agents did not always create the mandatory
      financial-investigative sub-file. Such documentation will
      help ensure case files can be reviewed for appropriate use of
      financial investigative techniques. In addition, better
      documented and organized case files provide FBI managers
      with the ability to evaluate their terrorist financing program
      and add value to the case management process when cases
      are reassigned or transferred. We also found that FBI field
      offices’ Terrorist Financing Coordinators did not always
      assist Special Agents with the financial-related aspects of
      counterterrorism investigations as intended by the FBI.

Support for the Utilization of Terrorist Financing Techniques

       In an August 2005 electronic communication to all FBI field offices,
TFOS presented basic financial-related investigative techniques that should
be given strong consideration, where appropriate, when conducting all
counterterrorism investigative matters. These investigative techniques and
their benefits are described in Exhibit 1.




                                       9

       Exhibit 1: Basic Financial Investigative Techniques for All
                      Counterterrorism Investigative Matters
  Financial-
   Related
Investigative
 Techniques                                  Benefit
FBI Database     The Investigative Data Warehouse allows users to query
Inquiries        information from several databases, including classified
                 systems such as the Automated Case Support system and
                 the Universal Index, as well as unclassified systems. The
                 Automated Case Support system maintains electronic copies
                 of most documents in FBI case files and provides references
                 to documents that exist in hardcopy only. This query also
                 includes data from FinCEN and other government agency
                 terrorism and non-terrorism related databases, which are
                 also considered financial-related investigative techniques as
                 shown below.
FinCEN Data      This inquiry searches all Banking and Money-Laundering
Inquiries        Suspicious Activity Reports (SAR) from the Department of
                 the Treasury’s FinCEN. Searching SAR can result in the
                 immediate identification of subjects’ addresses, businesses,
                 associates, banks, bank account numbers, and potential
                 criminal activity. SAR data can serve as a beginning to a
                 financial investigation and provide valuable non-financial
                 identifying data on a subject or entity of interest.
Government-      Databases maintained by local and state governments and
Wide             agencies outside the Department can provide information
Database         such as business data, source of income, tax status,
Inquiries        education, travel information, limited credit information, and
                 telephone subscriber information.
Public and       Civil and criminal court records pertaining to civil suits,
Commercial       settlements, divorce and legal separation and criminal
Database         actions may lead to the identification of hidden transactions
Inquiries        or assets. These databases may also provide other sources
                 of information available in public databases such as
                 bankruptcy records, real estate records, probate and death
                 records, tax assessor’s records, and secretary of state
                 records. Commercial databases can identify information
                 concerning all property owned or leased, including
                 associated persons who share mailing address.




                                      10

Credit History     Credit history checks may identify evidence of payments,
Checks             previously undisclosed assets used to make payments on an
                   account, third parties, principals, or co-conspirators who
                   made payments on an account. Reviewing credit card
                   purchases can establish a timeline of transactions to
                   establish the travel patterns of subjects.
Review of          Bank records show account information, significant dates,
Bank Account       locations of transactions, and the identity of the individuals
Activity           and businesses involved. Deposits can reveal the source of
                   funding, employment through payroll deposits, and wire
                   transfers to and from foreign contacts, bank accounts, and
                   domestic accounts. Automated teller machine transactions
                   can reveal timelines of movement, nationally and
                   internationally.
Source: TFOS Directive on Financial-Related Investigative Techniques

      As shown in Exhibit 1, there are many benefits to employing these
basic financial-related investigative techniques. According to The Attorney
General’s Guidelines for FBI National Security Investigations, the FBI has
three levels of investigative activity in national security investigations:
(1) threat assessments, (2) preliminary investigations, and (3) full
investigations. All of these techniques are in accordance with authorized
methods for each level of investigation. 16 Each level of a national security
investigation can benefit from the prudent usage of financial-related
investigative techniques.

      In its August 2005 electronic communication to all field offices, the FBI
advised that the usage, where appropriate, of financial-related investigative
techniques can result in the identification of personal information, non-
terrorism related criminal activity, previously unknown business and
personal associations, travel patterns, communication methods, resource
procurement, and Internet service providers. Special Agents can use these
techniques to create historical timelines, which may be used to determine
the location of an individual based on the geographic location of financial
transactions, such as automated teller machine withdrawals. The FBI further




       16
          The Attorney General Guidelines for FBI Domestic Operations and the Domestic
Investigations and Operations Guide call for the FBI to employ the least intrusive means
that do not otherwise compromise FBI operations. Search warrants, wiretaps, and
undercover operations are very intrusive. By contrast, investigative methods with limited
procedural requirements, such as checks of government and commercial data bases and
communication with established sources, are less intrusive.


                                            11

advised that these techniques often result in the development of additional
leads and information that allow an agent to pursue more sophisticated
investigative techniques. However, there are circumstances when these
techniques cannot be applied during an investigation. 17

       We agree that the benefits obtained from use of the basic financial-
related techniques is an important resource to the FBI’s terrorist financing
program. To assess how the FBI field offices addressed terrorist financing
through the use of these techniques, we selected eight FBI field offices with
the highest rate of counterterrorism activity. We reviewed a sample of
counterterrorism investigations for documentation of the Special Agents’ use
of the six financial-related investigative techniques. Our review involved a
two-step process. First, we reviewed case files to identify documentation of
use of the techniques. We compiled the results of this review and presented
those results to FBI managers. The FBI managers told us that they believed
that field office staff used the techniques more extensively than our case file
review indicated and endeavored to identify the support. The FBI managers
identified additional support from various sources and we reviewed that
support. The results of these reviews are summarized in Exhibit 2 and
discussed below.

        We reviewed 209 case files of which we selected 174 randomly and 35
judgmentally. We performed this review by evaluating the hard copy case
files in eight field offices. We also discussed with Special Agents their use of
the financial-related investigative techniques.

      From our case file review, we found that the FBI field offices’ files did
not always include documentation for their use of financial-related
investigative techniques. As shown in row 1 of Exhibit 2, we found that
Special Agents provided documents for use of the FBI database inquiries,
government-wide database checks, and public and commercial database
checks in more than 60 percent of the 209 cases we reviewed. We identified
documents for the Special Agents’ use of FinCEN inquiry in only 13 percent,
credit history in 29 percent, and bank activity in 35 percent of the files
reviewed.

      To obtain the additional support for use of financial-related
investigative techniques, TFOS and FBI Inspection Division officials contacted
Special Agents assigned to the sampled cases and reviewed the FBI’s

       17
           There are circumstances when a financial-related investigative technique may not
be applicable. For example, this may occur when the case’s subject is unidentifiable, a
website or telephone number, or considered a non-U.S citizen. In such circumstances, the
financial-related techniques may not be needed.


                                            12

Automated Case Support system to obtain support for the use of the
techniques. The FBI officials also provided additional details and
explanations regarding cases in our sample for which not all financial-related
investigative techniques were appropriate.

       The FBI officials told us that some common reasons for techniques not
being appropriate were: (1) the subject lived outside the United States, (2)
the subject of the case was a website with no financial relations, (3) there
was not a terrorism nexus, and (4) a subject was not identified. We agree
that not all techniques were appropriate for all investigative circumstances.
For example, when a subject lives outside the United States, there may be
no need to review a credit history or conduct a review of bank account
activity. Similarly, when the subject of an investigation is a website there
may be no need to review FinCEN data or review a credit history.

       We reviewed the additional documents provided by the FBI and agreed
that for many sampled cases the documents demonstrated either use of the
six financial-related investigative techniques or valid reasons for not using
the techniques. Row 2 of Exhibit 2 summarizes the number of sample cases
for which the FBI provided additional documents for the use of the
techniques. Row 3 summarizes the number of sample cases for which the
FBI supported valid reasons for not using the techniques. As shown in Row
4, the FBI documented that it used or did not need to use FBI database
inquires for 100 percent of the cases we sampled. However, for the
remaining five financial-related investigative techniques, the FBI did not
document usage or provide reasons for not using the techniques in all of the
sampled cases.




                                     13

              Exhibit 2: Support for the Special Agents Usage of the
                Financial-Related Investigative Techniques
                                              Government-     Public and              Review
                        FBI       FinCEN          wide       Commercial     Credit     Bank
                     Database    Gateway       Database       Database      History   Account
                      Inquiry     Inquiry        Check          Check       Check     Activity
     OIG’s File        139          27              152         142           61        74
 1   Review           (67%)       (13%)            (73%)       (68%)        (29%)     (35%)
     FBI’s
     Additional
 2   Support and
     Explanations      62           128             40           39           13        18
     Reasons
 3   Provided for
     Non-Usage          8           28              11           13          70         66
                          209          183             203          194       144        158
 4       Sub-total     (100%)        (88%)           (97%)        (93%)     (69%)      (76%)
     Support Not
 5   Provided           0           26               6           15           65        51
             Total        209           209            209            209      209        209
Source: OIG Analysis of Case Files and the FBI Research of Case Files

       Regarding the items in Row 4, TFOS officials stated that the
percentage of use for each technique in Row 4 reflected what they would
expect given the FBI’s practice of using the least intrusive techniques
necessary to complete an investigation. For Row 5, FBI officials told us that
to obtain documents for these items they would need to contact the original
case agent and perform a full case file review in the field offices to
determine how Special Agents documented their use of the financial-related
investigative techniques. The officials said that such a review would allow
them to assess the use of the technique or determine if there was a valid
reason for not using the technique. They also said that reviewing an
investigative case file is a very difficult task because each case involves a
different range of both investigative activity and documentation for that
activity. The officials said completion of such a review requires the work of
Special Agents with years of training and experience. In part, the officials
said, this is because many investigative techniques that may touch on
financial-related matters are “inherent” to each investigation and may be
documented in the case file separate from the financial investigative sub-file.

       During our case file review, we reviewed the master file and sub files
for relevant documents that documented the use of the financial-related
investigative techniques. We understand and accept that documentation for
use of the techniques may be located somewhere in the FBI’s filing system,
but we believe that documentation should be easily identified in the case
                                             14

files without the need for extensive searches performed by FBI officials or
us. The documentation for a given technique’s usage can be located in other
sections of the case, for example, bank account activities may be located in
the National Security Letter section of the case files. As discussed in the
following section of this report, the FBI mandates a financial investigative
sub-file to help ensure central documentation of financial investigative
techniques. Such documentation in the sub-file would allow succeeding case
agents, supervisors, and TFOS staff to assess financial investigative activity
without the need for extensive searches of the case file. In addition,
maintaining the files in this manner would ensure compliance with the
Standards for Internal Control in the Federal Government that require all
transactions and other significant events be clearly documented and that the
documentation be readily available for examination. 18 FBI officials told us
they disagree with the applicability of these standards to the management of
investigative case files. However, we note that, per the Government
Accountability Office, internal controls are synonymous with management
controls and cover all aspects of an agency’s operations (programmatic,
financial, and compliance). As such, we believe the standards apply and add
value to the FBI’s case management practices.

       Further, according to the FBI Domestic Investigations and Operations
Guide, at the closing of a full investigation, field Special Agents must
document whether all investigative methods or techniques initiated have
been completed or discontinued. FBI field offices are required to ensure that
all reasonable investigative techniques have been exploited during each
terrorism investigation and must exhaust all reasonable and practical
intelligence collection methods. In our judgment, better-supported case files
would more clearly demonstrate the results of techniques used and
explanations for not using a technique.

Cases Designated Specifically as Terrorist Financing Cases

       In 2008, the FBI recognized the need for more accurate data relating
to terrorist financing investigations, and TFOS developed new Criminal
Problem Indicator (CPI) Codes that pertain specifically to terrorist financing
issues in order to provide accurate information for congressional testimony
and other initiatives regarding terrorist financing investigations. Of the 209
counterterrorism cases we sampled, Special Agents identified 57 as “terrorist
financing” cases based on these codes.



       18
          U.S. Government Accountability Office, Standards for Internal Control in the
Federal Government, Report GAO/AIMD-00-21.3.1 (November 1999).


                                            15

        As shown in Exhibit 3, for terrorist financing cases, Special Agents
 applied the six financial-related investigative techniques about as often as
 for all the cases we sampled, and the FBI did not have support available for
 use of the techniques in all of the terrorist financing cases. Exhibit 2 relates
 to all counterterrorism cases and Exhibit 3 addresses cases that the FBI
 determined to be terrorist financing cases.

           Exhibit 3: Support for the Special Agents Usage of 

      Recommended Financial-Related Investigative Techniques for

                        Terrorist Financing Cases

                                             Government-      Public and                Review
                          FBI      FinCEN        wide        Commercial     Credit       Bank
                       Database   Gateway     Database        Database      History     Account
                        Inquiry    Inquiry      Check           Check       Check       Activity
    OIG’s File            37         13           46             38           19          32
1   Review              (65%)      (23%)        (81%)          (67%)        (33%)       (56%)
    FBI’s Additional
    Support and
2   Explanations         20         35             9             13           5            8
    Reasons
3   Provided for
    Non-Usage             0          2             0              2           16          11
                            57          50             55              53      40            51
4         Sub-total    (100%)       (88%)           (96%)         (93%)     (70%)         (89%)
   Support Not
5 Provided                0          7             2             4            17           6
              Total         57          57             57              57          57          57
 Source: OIG Analysis of Case Files and the FBI Research of Case Files

 Improvements Needed to Support the Use of Financial-Related Investigative
 Techniques

       The FBI’s Domestic Investigations and Operations Guide (DIOG)
 provides that each FBI component is responsible for creating and
 maintaining authentic, reliable, and trustworthy records. Such records:

            •	 facilitate the documentation of official decisions, policies,
               activities, and transactions;

            •	 facilitate the timely retrieval of needed information;

            •	 ensure continuity of business;

            •	 improve efficiency and productivity through effective records
               storage and retrieval methods;


                                             16

         •   ensure compliance with applicable laws and regulations; and

         •   safeguard the FBI’s mission-critical information.

      During our file reviews in FBI field offices, we were unable to locate
documents for the use of the six recommended financial-related
investigative techniques for many of the sampled counterterrorism cases.
FBI headquarters officials believed that additional documentation was
available and, in an effort to locate such documents, they completed reviews
of FBI data system records, e-mailed field office staff, and participated in
discussions with field office staff. At the conclusion of this effort, the FBI
located additional information and we agreed that documentation existed for
either use of the techniques or appropriately not using the techniques in
most of the sampled counterterrorism cases. However, as indicated in
Exhibit 2, despite our file reviews and the FBI additional review efforts,
complete documentation could not be located for five of the six techniques.
FBI officials believe that additional documentation may be available
elsewhere in the FBI files located in field offices.

      Our initial fieldwork results showed the case files did not always
include clear documentation of the use of the financial-related investigative
techniques. The FBI expended a considerable amount of time and resources
to support the Special Agents’ use of the financial-related investigative
techniques. Because of the need for these efforts, we believe the FBI could
strengthen its terrorist financing program by ensuring Special Agents
routinely document their usage of the financial-related investigative
techniques for counterterrorism investigations. There should be clear
documentation in the case files to document the use of the financial-related
investigative techniques or a clear explanation of why the techniques were
not appropriate for use.

        In its 2005 electronic communication, TFOS also concluded that data
obtained from field office surveys, Automated Case Support records, and
numerous leads directed to TFOS showed that Special Agents often
under-utilized basic financial-related investigative techniques. TFOS
concluded that terrorism financing was often equated erroneously only with
investigative matters that relate to terrorist fundraising. In the same
communication, TFOS explained that a common misconception is that the
application of financial-related investigative techniques is appropriate only in
investigations involving entities and individuals suspected of raising funds in




                                       17

support of terrorism. TFOS officials believed, and we agree, that Special
Agents should use financial-related investigative techniques in all
counterterrorism investigations and not just those that involve terrorist
fundraising.

        In our judgment, with better-supported cases files supervisors can
readily determine if the case agent used or properly considered the use of
these techniques. Such documentation would enable field office supervisors
and TFOS staff at FBI headquarters to ensure that appropriate financial-
related investigative steps are taken in all counterterrorism investigations.
When cases are transferred to another agent or office, complete support
provides for efficient transition and ensures there is no duplication of work.
The documented use of financial-related investigative techniques or
explanations for not using the techniques allows the investigation to
continue without delay. For these reasons, we believe that the FBI should
enhance its process to ensure that case files include documented support
regarding the use of financial-related investigative techniques.

Mandatory Financial Investigative Sub-file

        To provide financial focus and organization to counterterrorism
investigations, in August 2005 the FBI, sent an electronic communication to
all field offices requiring the creation of a financial investigative sub-file. The
sub-file was intended to provide financial focus and organization to
counterterrorism investigations by ensuring that Special Agents give
appropriate attention to the financial aspects of each preliminary and full
counterterrorism investigation. The financial investigative sub-file was also
intended to assist the Counterterrorism Division in carrying out its program
management responsibilities. However, the August 2005 communication did
not identify specific documents to be included in the sub-file. 19

      We reviewed the 209 sampled case files at the eight FBI field offices
we visited to determine the extent to which Special Agents established
financial investigative sub-files. We determined that for 76 percent of
sampled case files (159 out of 209 cases) Special Agents opened the
mandatory sub-file. For the remainder of the sampled cases, Special Agents


       19
           At the time of our audit, the FBI had developed a draft Counterterrorism Policy
Implementation Guide, which the FBI said it expected to finalize in the spring of 2011. The
draft guide stated that field offices should use sub-files to organize intelligence information
and maintain financial National Security Letters, financial records, and documents generated
as a result of any financial analysis or intelligence collected on a subject’s financial
activities. National Security Letters give the FBI the power to obtain the disclosure of
customer records held by banks, telephone companies, and Internet services providers.


                                              18

did not open or had not yet opened the sub-file. Special Agents told us a
sub-file was not used because some cases did not have a financial nexus,
some of the subjects in other cases were not U.S. citizens, some Special
Agents were not aware of the sub-file requirement, and in some cases
financial investigative information was filed in a different sub-folder.

       Although the Special Agents provided explanations for not creating a
sub-file for their counterterrorism investigations, we believe the sub-file
should be created because it can improve the case management process and
provide a baseline for the financial focus. When a case is reassigned to
another Special Agent, the sub-file also provides an overview of techniques
performed by the previously assigned Special Agent. Without the sub-file,
another Special Agent may not readily determine which techniques were
used and it is difficult to tell whether Special Agents are adhering to the
FBI’s directive to enhance the financial aspects of its counterterrorism
investigations. The FBI may not be able to determine whether Special
Agents are giving appropriate attention to the financial aspects of each
preliminary and full counterterrorism investigation. We believe the sub-file
can be used as a central location for documenting the use of the financial-
related investigative techniques or reasons for not using the techniques.
When the documented support for the use of the financial-related techniques
are centrally located, case file reviews are more efficient and staffing
resources for these reviews are better utilized.

       We interviewed 40 Special Agents (38 Special Agents and
2 Supervisory Special Agents) regarding their perceptions about whether the
sub-file requirement encouraged them to use the recommended financial
investigative tools. Eleven Special Agents told us they believed the use of
the sub-file increased their focus on terrorist financing matters, but 24 said
they did not believe that the sub-file led to such a focus. 20

      We also reviewed the documented support for the use and valid
reasons for not using the financial-related investigative techniques to assess
the Special Agents’ use of the techniques when they opened sub-files and
when they did not open sub-files for investigations. As shown in Exhibit 4,
our results indicate that Special Agents employed these techniques at about
the same rate when sub-files were opened as when they were not opened.



       20
          Of the remaining five Special Agents we interviewed, two said they did not have
knowledge of the sub-file and two were indifferent about the sub-file. We did not receive a
response from one Special Agent.



                                            19

            Exhibit 4: Documented Usage of Financial-Related
 Investigative Techniques When Sub-files Were and Were Not Used

                                                                    100%
                 FBI Database Inquiry
                                                                    100%


                                                                 88%
             FinCEN Gateway Inquiry
                                                                86%


                                                                    99%
    Government-wide Database Check
                                                                  92%
                                                                           subfile used
      Public and Commerical Database                              93%      subfile not used
                   Check                                          92%


                                                         68%
                 Credit History Check
                                                          72%


                                                            77%
      Review of Bank Account Activity
                                                          70%

                                        0%   20% 40% 60% 80% 100% 120%

    Source: OIG Review of FBI Case Files

       Although these results show that the use of the sub-files may not have
an impact on Special Agent’s use of the six financial-related investigative
techniques, we disagree with the 24 Special Agents who said they believe
that the sub-file requirement does not encourage them to focus on using the
recommended financial-related investigative techniques. In our judgment,
the successful use of the sub-file by one-fourth of the Special Agents we
interviewed demonstrates that full implementation of FBI management’s
decision to establish the sub-file can assist the Counterterrorism Division in
carrying out its program management responsibilities by providing better
oversight to ensure that field offices adhere to the mandatory financial focus
requirement when conducting counterterrorism investigations. Further,
when cases are transferred or reassigned, Special Agents can review the
sub-file and easily determine whether any financial-related investigative
techniques had been used during the investigation. We sought to identify
areas of counterterrorism management that may affect the FBI’s terrorist
financing program.




                                                 20

Special Agents’ Training and Background

       At the eight field offices where we reviewed case files, we interviewed
40 Special Agents who worked on our sample cases and asked about the
extent of their financial backgrounds and their training on financial-related
investigative techniques. For purposes of our interviews, a financial
background consisted of previous experience working in the financial
industry. Similarly, ongoing financial training consisted of periodic training,
to include trends in terrorist financing, offered by the Coordinator to field
offices. Of the 40 Special Agents we interviewed, 30 did not have a financial
background. Of these 30 Special Agents, 15 told us they had not received
any training on financial-related investigative techniques.

      The TFOS Section Chief told us that field Special Agents need
additional training, and TFOS was planning a conference for Coordinators
and Special Agents to reinforce the importance of the financial aspects of
counterterrorism investigations. 21 Routine training would increase
awareness of the benefits of the financial-related investigative techniques
and improve the usage of these techniques.

Terrorist Financing Coordinator Position

      We also reviewed the Terrorist Financing Coordinator position at the
eight field offices we visited. Our results are discussed below.

       In April 2002, the FBI requested field offices to designate a Terrorist
Financing Coordinator to serve as a point of contact with the TFRG, which
was subsequently renamed TFOS. Specific Coordinator duties include
ensuring terrorist financing sub-files are active and contain financial
investigative information. A March 2008 electronic communication
expressed the importance of the Coordinator’s role and directed field office
staff to contact their coordinator with questions, assistance needs, and
referrals to TFOS personnel.

      To assess the FBI’s implementation of the Terrorist Financing
Coordinator initiative, we reviewed counterterrorism case files and
interviewed Coordinators about their background and experience related to
terrorist financing at eight FBI field offices. We also interviewed several
TFOS officials at FBI headquarters about the Coordinator position.



       21
         FBI designated Terrorist Financing Coordinators in each field office to assist with
the implementation of the terrorist financing program.


                                             21

Duties and Responsibilities

       The March 2008 electronic communication specified that Coordinators:

            •	 serve as the liaison between the field offices, Joint Terrorism
               Task Forces (JTTF), and TFOS; 22

            •	 attend all training conferences designated for Coordinators;

            •	 participate in the Emergency Response Network to respond to
               queries that demand immediate resolution;

            •	 assist in the coordination of the Terrorist Financing Coordinator
               national initiatives;

            •	 review counterterrorism cases that have a potential terrorist
               financing component;

            •	 identify criminal cases that may have a nexus to terrorist
               financing;

            •	 engage in all counterterrorism investigations with a designated
               level of identification;

            •	 serve as a liaison with the local banking community;

            •	 articulate the investigative responsibilities and abilities of TFOS
               to the field office; and

            •	 participate in domestic and international deployments. 23

       We believe Coordinators are not used as intended by the FBI to assist
field Special Agents in the focus on terrorist financing matters. Exhibit 5
depicts how the eight Coordinators we interviewed described their duties.
All Coordinators attended the annual training conferences and served as the
liaison between the field offices and TFOS. Five of the eight Coordinators

       22
           The JTTFs consist of FBI, state and local law enforcement officers and
representatives of various federal agencies. The JTTFs are supervised by FBI Supervisory
Special Agents and are managed locally by the Special Agents in Charge or Assistant
Directors in Charge of the respective field offices. TFOS recommended Coordinators be
assigned to field office JTTFs and partner with a financial specialist from other agencies.
       23
           Coordinators can volunteer to be assigned to carry out terrorist financing
investigations within or outside the United States.


                                             22

served as a liaison with the local banking community. Three Coordinators
performed the duties of identifying criminal cases with a nexus to terrorist
financing and reviewing case files for a potential terrorist financing
component. Only one Coordinator participated in domestic and international
deployments and one assisted with the coordination of TFOS national
initiatives.

   Exhibit 5: Recommended Duties Performed by the Coordinators

           Participates in domestic and         1
                                                                7
            international deployments

       Serves as a liaison with the local               5
                                                    3
             banking community

 Identifies criminal cases for a nexus to           3
                                                        5
            terrorist financing
                                                    3                     Yes
  Reviews counterterrorism cases for a
                                                        5                 No
 potential terrorist financing component

     Assist in the coordination of TFOS         1
                                                                7
              national initiatives

        Attends all training conferences                            8
                                            0
          designated for coordinators

 Serves as the liaison between the field                            8
                                            0
            offices and TFOS

  Source: OIG Analysis of Coordinator Duties

      In addition, we compared Coordinators’ work and the training they
received to TFOS expectations. We focused on each Coordinator’s: (1)
background and selection, (2) extent of terrorist financing training received
from TFOS, (3) technical assistance and training provided to the field offices,
(4) review of counterterrorism and identification of criminal cases, and (5)
involvement within the financial community.

Background and Selection of Coordinators

      In March 2008, TFOS advised FBI field offices that each Coordinator
should be a Special Agent with financial investigative experience. The
communication did not provide details on the level of financial investigative
experience required for the position. Of the eight Coordinators we
interviewed, the FBI employed three as financial analysts and the remaining
five were Special Agents. Five Coordinators (one financial analyst and four
Special Agents) had a background in conducting investigations, one financial

                                            23

analyst had a background in accounting and finance, and one Special Agent
and one financial analyst had a background in financial crimes. 24 The
Coordinators had between 3.5 and 23 years of experience with the FBI.
Exhibit 6 summarizes the background, position, and years of experience with
the FBI for these eight Coordinators.

   Exhibit 6: Coordinator’s Background and Experience at the Eight

                        Field Offices We Visited

                                                           Years of FBI
     Location            Background           Position
                                                           Experience
Atlanta              Terrorist Financing Financial Analyst      7
                     Investigations
Chicago              Investigation       Special Agent         3.5
Detroit              Terrorist Financing Special Agent          8
                     Investigations
Houston              Financial Crimes    Financial Analyst     23
Los Angeles          Investigation       Special Agent         19
Miami                Accounting/Finance Financial Analyst      11
New York City        Terrorist Financing Special Agent         10
                     Investigations
Washington, D.C.     Financial Crimes    Special Agent          9
Source: OIG Analysis of Coordinators’ Background and Experience

      Despite the recommendation that Coordinators should be Special
Agents, 10 of the remaining 48 field offices designated a financial analyst or
a forensic accountant as the Coordinator. During our audit, we learned that
the FBI had not developed formal qualifications for the Coordinator position.
TFOS officials told us they were aware that field offices selected financial
analysts or forensic accountants as Coordinators. When we asked about
general qualifications for a suitable candidate for the Coordinator position,
TFOS officials told us that Special Agents were ideal candidates because they
have experience investigating cases that a financial analyst would lack. In
addition, a TFOS official told us that a Special Agent would have more
credibility with other Special Agents to direct and advise investigative work.
Nevertheless, TFOS officials told us that financial analysts often have more
financial experience than Special Agents who are available for a Coordinator
assignment. These officials told us it was not always practical to select a
Special Agent designee, and that it was best to allow the field offices to
choose the Coordinator designee.



       24
            Of the five Coordinators with investigative experience, three had experience in
terrorist financing investigations.


                                             24

       The March 2008 communication also stated that the Coordinator
position was expected to be assigned on a full-time basis. However, the
eight Coordinators we interviewed performed other duties in addition to
those associated with their Coordinator roles. For the Special Agents, these
general duties included planning and conducting investigations, collecting
and evaluating information and intelligence, and providing advice and
assistance to the U.S. Attorneys’ Offices during prosecutions. The financial
analysts’ general duties consisted of examining, analyzing, extracting, and
scheduling pertinent financial data from financial documents and identifying
the types of financial documents and records needed to prove criminal
allegations.

       In May 2011, the FBI issued another electronic communication that
officially modified the Coordinator’s role and responsibilities. This
communication stated that the selected Coordinator should be a qualified
Special Agent or analyst with a successful track record for working
counterterrorism investigations. It further stated the Coordinator should
have a financial background; however, such a background was not
mandated because, the communication stated, TFOS would provide financial
training. Beyond stating that a Coordinator should be a qualified and
experienced Special Agent or analyst, this communication did not establish
specific qualifications for the Coordinator position.

       Because resources and caseloads differ within each of the field offices,
field offices cannot always select a Special Agent to be Coordinator as TFOS
has recommended. As shown in Exhibit 6, the Coordinators we interviewed
had different levels of experience. We believe the selection of the
Coordinator should be based on field office resources and a potential
candidate’s skills and abilities, including financial investigative experience, so
that selecting officials can make appropriate assessments of their staff.
However, absent formally established qualifications for the Coordinator
position, the potential exists for field offices to select a coordinator without
the skills, abilities, or interest to perform the Coordinator’s duties.
In addition, without clearly defined expectations for the Coordinator position,
the field offices may not receive the full benefit that Coordinators could
provide.

Training Received and Provided

       TFOS hosts a 3-day annual Terrorist Financing Conference that
provides introductory training to new Coordinators and serves as refresher
training to existing Coordinators. The annual conference consists of sessions
and presentations that include: case study reviews, advanced financial
investigative methods in terrorism cases, emerging trends in electronic

                                       25

money movement, information on sanctions and designations,
intergovernmental and international assistance, information on financial
crimes in terrorism cases, non-governmental organizations, and best
practices. Attendance at the conference is mandatory for field office
coordinators. Each of the Coordinators we interviewed attended the annual
conference.

       TFOS officials told us that it is the FBI’s routine practice to survey
conference participants to obtain feedback from the Coordinators about their
experience and recommendations for future conferences. However, these
officials were unable to locate the evaluation forms or any summary
evaluation of those forms for the September 2010 conference.
Consequently, the FBI did not evaluate overall participant feedback
regarding this conference and we were also unable to do so.

      We also interviewed the Coordinators at the eight FBI field offices
regarding the training they received. Two of the eight Coordinators told us
they would like the FBI to provide more Coordinator-focused training and
direct guidance on official Coordinator duties. The other six Coordinators
made no comments about a need for more training on their duties.

       In February 2008, TFOS provided a voluntary training opportunity that
allowed each Coordinator to be detailed to TFOS’s offices at FBI
Headquarters. The detail would have provided the Coordinators with a
strategic perspective of TFOS as they rotated through most of the TFOS
organization. TFOS intended that upon completion of the training rotation
each Coordinator would be in a better position to perform their role within
their respective field office and law enforcement and intelligence
communities.

       We interviewed TFOS officials and the field office Coordinators to
assess Coordinators’ participation in this training. However, TFOS officials
we interviewed were unable to provide precise information regarding the
training or documentation related to the program. Moreover, none of the
Coordinators we interviewed participated in the training rotation.
Consequently, we were unable to assess the adequacy of this training. 25

      Given the training needs identified by two of the eight Coordinators we
interviewed, and considering the missing conference evaluation
documentation, we believe that TFOS should develop and implement a

      25
          We could not review the program. None of the FBI Headquarter staff we
interviewed could provide us with any information on the program, and none of the
Coordinators we interviewed participated in the program.


                                           26

method to evaluate the adequacy of training provided to the field office
Coordinators. The Coordinators should receive routine training that focuses
on the financial-related investigative techniques and the benefits of the
results achieved when these techniques are used. The training the
coordinators receive enables them to provide training to the field offices,
which strengthens the FBI’s ability to enhance the financial aspect of its
counterterrorism investigations.

Provision of Coordination and Technical Assistance

       Each Coordinator serves as the point-of-contact regarding financial
investigative matters that involve interaction between TFOS and FBI field
offices. A coordinated approach to terrorist financing investigations is critical
because investigations in one office may be linked to investigations in other
field offices or countries. As the point-of-contact between the field office
and TFOS, the Coordinator should enhance the FBI’s ability to coordinate the
financial aspects of counterterrorism investigations and criminal matters that
could have a potential link to terrorism.

       TFOS recommended in a March 2008 electronic communication that
each Coordinator assist Special Agents in making contact with TFOS to help
field office staff understand the financial services that TFOS can provide. We
interviewed Coordinators to determine the extent the Coordinators provided
assistance to the field offices. Each Coordinator told us he or she provided
assistance to the field office staff. For example, one Coordinator told us that
he advised Special Agents when to perform credit checks of investigation
subjects and that he analyzed bank documents for Special Agents in cases
where the subject was believed to have transmitted funds to finance
terrorism. Other Coordinators told us that they periodically received
requests for information from TFOS related to counterterrorism cases and
performed follow-up on TFOS’s requests for information.

       TFOS also recommended the Coordinator assist Special Agents in
identifying potential terrorist financing matters and then refer the Special
Agents to the appropriate components within the field office. Each of the
eight Coordinators we interviewed told us they provided some form of
technical assistance within their respective field offices such as providing the
JTTFs with guidance on the financial aspects of their terrorism investigations.
This type of assistance appears consistent with the guidance from TFOS’s
March 2008 communication.

     In a February 2008 communication, TFOS encouraged each
Coordinator to train members of the Joint Terrorism Task Force,
counterterrorism investigators, and analysts regarding the importance of the

                                       27

financial aspects of terrorism investigations and other information that could
be beneficial to their investigations. In addition, TFOS established the
Coordinator role as a means to provide financial investigative resources to
the field offices. Of the eight Coordinators we interviewed, seven told us
they provided or coordinated training within their field offices. One
Coordinator told us he did not provide or coordinate terrorist-financing
training and did not know if the Special Agents within the field office
received this training elsewhere. He also said that this expectation had not
been communicated to him, and he did not have time to perform this duty
because of his caseload and other work responsibilities.

Review of Counterterrorism and Criminal Cases

      In a February 2008 electronic communication, TFOS recommended
that each Coordinator review the counterterrorism cases within their
respective field offices to identify appropriate financial aspects of cases that
merit further financial investigation. Three Coordinators told us they
performed this review while five coordinators told us they did not. One
Coordinator told us he did not have time to perform reviews of other Special
Agents’ case files given his own caseload. Another Coordinator said he only
reviewed case files from his own squad, and another said that he only
reviewed case files for other squads when approached with a request for
assistance. Another Coordinator told us that he was not told anything about
his duties from TFOS or his field office supervisor.

       Additionally, TFOS recommended that each Coordinator identify
criminal cases within the field office for a potential link to terrorist financing
activity. Of the eight Coordinators we interviewed, three told us they
performed this review while the remaining five told us they did not perform
this review. One Coordinator told us that he only performed this duty on his
own caseload. Another Coordinator told us that because of his own
caseload, he did not have time to identify criminal case files assigned to
other Special Agents.

      The FBI intended for the Coordinator position to play a pivotal role in
ensuring that terrorist financing matters were part of the counterterrorism
investigations. The FBI established the Coordinator position to enhance the
financial aspect of the counterterrorism investigations by identifying
potential terrorist financing matters and reviewing cases to identify
appropriate financial aspects that merit further financial-related investigative
techniques.

     For the 209 cases files we reviewed, we assessed documentation
maintained in the case files for interaction between the field office

                                       28

Coordinator and case agents. We reviewed the case files for documentation
that supported the Coordinator’s review of the sample cases and found
evidence that the Coordinators participated in 5 percent of the case files we
reviewed. From our case file review, it appears the Coordinators may not be
completing this duty as intended by the FBI. Coordinator involvement with
the counterterrorism investigations provides the FBI with the ability to
ensure field offices include an appropriate financial focus. If the
Coordinators are not performing as intended, field offices may not employ
appropriate financial-related investigative techniques and achieve the
mandatory financial focus.

      A TFOS official told us that in practice the Coordinators often do not
have time to independently review other Special Agents’ counterterrorism
case files. The official added that the newly implemented reorganization of
TFOS would make it unnecessary for the coordinator to review
counterterrorism cases because TFOS staff would perform this review as part
of their program manager responsibilities. The reorganization of TFOS is
discussed later in this report.

      We believe the FBI should better define for its field offices the extent
to which Coordinators be assigned to other duties. Reducing the collateral
duties assigned to Coordinators should allow the Coordinators to focus on
the review of case files for where our audit results indicate improvements
could be made.

Liaison with the Financial Community

       According to the March 2008 guidance, as liaisons with the local
banking community, Coordinators are expected to attend bank fraud working
group or criminal task force meetings and to initiate personal contacts within
the financial community. We interviewed the Coordinators to determine the
extent of their involvement with their respective local financial community.
Five of the eight Coordinators told us they interacted with their local financial
community while the remaining three told us they did not. We believe the
financial community to be vital in the FBI’s efforts to address terrorist
financing and that the Coordinators should routinely interact with the
financial community. By establishing relationships within the financial
community, the Coordinators can obtain valuable resources that may lead to
the development of cases and provide assistance with ongoing terrorist
financing investigations.




                                       29

FBI-Proposed Changes to the Terrorist Financing Coordinator Initiative

      After we completed our audit work and assessment of the Coordinator
program, TFOS officials informed us that they had completed a review of the
program and prepared a report dated February 2010. That report, produced
by a Terrorist Financing Coordinator Working Group (Coordinator Working
Group), noted that:

            •	 the Coordinator’s job description and duties were not clearly
               defined;

            •	 Coordinators received inconsistent support from FBI field
               managers and were spending less than 10 percent of their time
               working on Coordinator-related matters;

            •	 Coordinators had very little vested interest in the position and
               there was no mechanism to hold Coordinators accountable for
               their performance; and

            •	 field offices did not always select the most qualified individual to
               assume the Coordinator role.

       These results are consistent with our findings that coordinators did not
always perform their duties as intended by the FBI, performed unrelated
collateral duties, and were not always selected in accordance with TFOS
guidance.

       Based on its review, the Coordinator Working Group recommended
that the FBI re-evaluate coordinator duties based on the size of the field
office, tie each field office’s performance score to terrorist financing so that
managers allow Coordinators more time on Coordinator duties, and
designate as Coordinators only persons with financial backgrounds. 26 The
working group proposed that Coordinators support cases, serve as the TFOS
point of contact, and act as liaisons to the financial community. Case
support included assessing ongoing and newly opened preliminary and full
counterterrorism investigations to ensure appropriate investigative steps are
documented. TFOS point of contact duties included providing training to
JTTF staff, coordinating trends and initiatives, and explaining the
responsibilities of TFOS. As financial community liaison, coordinators would
serve as an active member of the Suspicious Activity Review Team,

       26
          The FBI Inspections Division measures field office performance using a process
called a Semi Annual Program Review (SAPR). The Coordinator Working Group
recommended that 8 percent of a field office’s SAPR score relate to terrorist financing.


                                            30

participate in local bank security officers meetings, and provide training to
local law enforcement and bank security officers on trends in terrorist
financing.

       The Coordinator Working Group’s recommendations were appropriate
given the FBI’s intent in establishing the Terrorist Financing Coordinator
Initiative. The recommended actions would strengthen the Coordinators’
engagement with counterterrorism investigations, enhance JTTF staff
training on terrorist financing, and help ensure management support to
improve program effectiveness. However, TFOS had not implemented the
recommendations proposed by the Coordinator Working Group because the
FBI planned to restructure TFOS, and as discussed later in this report, make
changes to the Coordinator program.

      Through a May 2011 memorandum sent to field offices, TFOS officially
modified the coordinator’s roles and responsibilities. Prior to the restructure,
TFOS relied exclusively on Coordinators to assist in providing case review
and support functions to counterterrorism investigations now handled by
TFOS program managers. TFOS acknowledged that this case review
responsibility yielded inconsistent results. As a result, TFOS modified the
Coordinator’s responsibilities to stress their role as a liaison and conduit of
information between TFOS and the field offices, and decrease their case
review responsibility.

      We believe it is important that all criminal and counterterrorism cases
be reviewed for a potential nexus to terrorist financing so that FBI
management can seek to achieve a consistent approach to applying
financial-related investigative techniques. If the Coordinators are not going
to provide such a review of all criminal and counterterrorism cases not
reviewed by TFOS, the FBI should ensure another mechanism to achieve
these reviews.

TFOS Involvement

      During our review of 209 counterterrorism cases, we sought
documentation of TFOS’s coordination and involvement in these
investigations. Specifically, we reviewed cases for TFOS coordination and
involvement with financial-related products, such as record analyses, linkage
charts, data base checks, or electronic communications provided in response
to requests made by the field offices. We also reviewed case files to
determine if TFOS made any recommendations regarding financial-related
investigative techniques. Of the 209 cases we reviewed, 24 contained
documentation of coordination with TFOS. Of these, 14 cases showed TFOS
provided a financial product such as record analyses, linkage charts, and

                                      31

database checks and 10 cases contained documentation of TFOS providing
recommendations.

      Of the 40 Special Agents we interviewed, 19 told us they had not
worked with TFOS during their counterterrorism investigations. The 19 field
Special Agents provided various explanations for why they had not
interacted with TFOS. For example, one Special Agent told us that his office
was self-sufficient. Another told us that he worked on a reactive squad, and
his cases did not reach the point of needing TFOS.

       For the 21 Special Agents we interviewed who had worked with TFOS,
15 had positive experiences and believed TFOS was helpful and provided
beneficial and timely assistance. For example, one Special Agent said that
when he asked TFOS staff for special record searches they were helpful and
timely. Another said that TFOS was responsive when asked for assistance.
When requesting TFOS’s assistance for a 2006 case, a Special Agent told us
that TFOS staff conducted interviews, wrote an affidavit in support of
forfeiture, and conducted records checks, which he considered beneficial.
Another described one of her cases in which a TFOS analyst was assigned
full-time and was very responsive.

      The reasons agents provided for not having positive interactions with
TFOS included a perception that TFOS was only interested in high profile
cases and a perception that TFOS was unresponsive and when it did
respond, its assistance was not useful.

      We believe a negative experience with TFOS or the lack of assistance
from TFOS when requested can distract the field Special Agents from
focusing on the financial aspects of the counterterrorism investigations. The
FBI should clarify when TFOS assistance should be expected or when the
assistance should come from another person such as a financial analyst or
the Coordinator.

Lack of Communication on Case Management

      TFOS officials told us they understand that some field Special Agents
may not have received the assistance requested in the past because TFOS
experienced several management changes in recent years and each new
Section Chief brought in a new focus on the section’s approach to addressing
terrorist financing.

      In August 2010, the Assistant Director of the Counterterrorism Division
told us that he planned to assign TFOS staff members program manager
status over certain counterterrorism investigation cases. Prior to these

                                     32

changes, TFOS acted in a supportive rather than a directive role at the
headquarters level and TFOS staff members could not manage the
techniques Special Agents employed in their counterterrorism investigations.
However, the Counterterrorism Division’s International Terrorism Operation
Section (ITOS) could mandate such changes. ITOS program managers are
organized into teams led by a Supervisory Special Agent. ITOS teams
approve actions in counterterrorism investigations and monitor the
progression of the cases. TFOS officials told us the lack of ownership by
TFOS over counterterrorism investigations limited the assistance TFOS staff
could provide to field Special Agents on daily financial matters, such as
analyzing bank records. As discussed below, this change was initiated in
December 2010 when TFOS was restructured.

TFOS Restructure

       The primary goal of restructuring TFOS was to transform the section
and integrate strategic intelligence, develop processes to enhance
counterterrorism investigations, and initiate operational program
management. Since December 2010, TFOS staff members have program
manager status over fundraiser counterterrorism investigations whereas
previously they were unable to ensure that financial-related investigative
techniques were incorporated into these investigations. As program
managers, TFOS staff is able to approve actions and direct field Special
Agents to use certain tactics, such as financial-related investigative
techniques, in an investigation. This change should reduce the limitation
TFOS officials told us they had in managing counterterrorism investigations.
According to the FBI, TFOS has gone through a major transformation into a
fully operational section, actively involved in the program management of
the FBI’s terrorist financing investigations. TFOS’ program management
efforts include daily contact with field office and liaison partners to fully
support investigative demands and threat mitigation. However, the
requirement remains that every pending and full counterterrorism
investigation has a financial focus. We believe the FBI should ensure that
counterterrorism investigations not managed by TFOS continue to undergo
close review for financial leads.

       In May 2011, TFOS established official duties and responsibilities for
the Coordinator program that decreased Coordinators’ involvement in case
reviews. Coordinator duties and responsibilities should be re-evaluated to
ensure field offices do not under-utilize the resources provided to enhance
the financial aspects of counterterrorism investigations. Specifically,
Coordinators should continue to perform case reviews and identify criminal
cases with a financial nexus. This provides field Special Agents with direct
resources and enhances counterterrorism investigations.

                                      33

Conclusion

      We found that Special Agents utilized financial-related investigative
techniques while conducting counterterrorism investigations. However, the
FBI can improve its terrorist financing program by requiring Special Agents
to better document their use and valid reasons for not using the six
financial-related investigative techniques recommended by the FBI’s
Terrorist Financing Operations Section. We found that documentation was
not always readily identifiable in the case files to support the use of or valid
reasons for not using the techniques. Better documentation for the use of
the techniques would enhance the FBI’s ability to assess whether Special
Agents focused on the financial aspects of all counterterrorism investigations
and ensure more-effective continuation of investigations when a case is
transferred or reassigned. Over half of the Special Agents interviewed did
not believe the use of the sub-file encouraged their use of the financial-
related investigative techniques. We believe the sub-file encourages focus
and organization to the financial aspect of counterterrorism investigations
and assists in ensuring that Special Agents give appropriate attention to the
financial aspects of each preliminary and full counterterrorism investigation.
We believe Special Agents’ interest in these techniques could be improved
through routine financial investigative training and increased TFOS
involvement.

      Further, field offices did not use the Terrorist Financing Coordinators
as the FBI intended. Particularly, we found during the review period that
Terrorist Financing Coordinators did not routinely review counterterrorism
cases to ensure the field offices implemented the financial focus directive for
counterterrorism investigations.

      To enhance the FBI’s efforts to identify, investigate, and connect
terrorist financing activities, the FBI should ensure that Special Agents
include documented support in the case file for the use and valid reasons for
not using the financial-related investigative techniques, that field offices
support the use of the financial sub-file, and that its Terrorist Financing
Coordinators are more engaged in their field office’s counterterrorism
investigations.




                                      34

Recommendations

We recommend that the FBI:

1.	   Ensure Special Agents appropriately document their use of all 

      financial-related investigative techniques for all counterterrorism

      investigations. 


2.	   Consider requiring Special Agents to document the valid reasons for
      not using the six basic financial-related investigative techniques for all
      counterterrorism investigations.

3.	   Ensure Special Agents adhere to the requirement for the creation of

      the mandatory financial investigative sub-file for all counterterrorism

      investigations.


4.	   Ensure that Special Agents in the field offices with responsibility for

      counterterrorism investigations receive on-going training regarding

      financial-related investigative techniques.


5.	   Clearly define the roles, responsibilities, and expectations of the

      Terrorist Financing Coordinators.


6.	   Develop, implement, and document formal methods to evaluate the
      Terrorist Financing Coordinator Conference and other training provided
      to Coordinators.

7.	   Ensure that there are appropriate written qualifications and training for
      the field offices’ selection of a Terrorist Financing Coordinator as
      defined by TFOS.

8.	   Ensure that management develops a consistent approach for field

      offices to include financial-related focus and organization for all

      counterterrorism investigations.





                                       35

II.	   THE FBI’S AND NSD’S COORDINATION AND SHARING EFFORTS
       REGARDING TERRORIST FINANCING OPERATIONS

       The Department’s counterterrorism strategy involves the
       use and sharing of intelligence by working with federal,
       state, and local partners, as well as international entities.
       The Department’s approach to counterterrorism involves a
       focus on all components of terrorist organizations, including
       terrorist financing. We found that the FBI and NSD utilize
       established mechanisms and relationships for
       counterterrorism matters to share and coordinate terrorist
       financing-related information and operations.

The Department’s Counterterrorism Approach

      The Department’s overall approach to counterterrorism involves the
investigation of the entire terrorist organization, with terrorist financing as a
subset of the investigation. Terrorist financing matters are considered
during investigations and intelligence gathering, along with a wide array of
other terrorist activities. During our audit, we identified mechanisms used
by the FBI and NSD to coordinate and share counterterrorism intelligence
that encompass terrorist financing and other aspects of terrorist operations.

FBI Coordination and Sharing Efforts

       As part of its central mission, the FBI provides leadership and criminal
justice services to federal, state, and local agencies. According to The
Attorney General’s Guidelines for Domestic FBI Operations, the FBI may
disseminate information obtained or produced through activities under these
guidelines to other federal, state, local, or tribal agencies if relevant to its
responsibilities. One of the FBI’s top priorities is to support these law
enforcement agencies in performing counterterrorism investigations. These
agencies receive information and resources that include terrorist financing
intelligence from the FBI’s 56 field offices and 400 smaller resident agency
offices throughout the United States.

      The FBI also participates with domestic and international entities to
coordinate activities related to terrorist financing. Various FBI offices and
programs, such as the Joint Terrorism Task Forces, Terrorist Financing
Operations Section, and Legal Attaché Offices share in the effort to target
terrorist financing. 27

       27
         Legal Attaché Offices, also known as Legats, are FBI offices located in U.S.
embassies around the world.


                                            36

       Since the 2001 terrorist attacks, the FBI has sought to implement an
intelligence program to analyze and share a broad range of counterterrorism
information. To assess the FBI’s coordination and sharing activities
pertaining to terrorist financing, we focused our audit work on the efforts of
TFOS, the Joint Terrorism Task Force, and the FBI’s interactions with the
Department of Homeland Security. While we recognize that overall FBI
coordination and sharing efforts are more broadly based, we selected these
areas of focus because they form the core of the FBI’s terrorist financing
investigative efforts. The FBI Office of the General Counsel provided us with
information regarding the FBI’s authority for combating terrorist financing.
The Terrorist Financing Operations Section, Joint Terrorism Task Forces, FBI
field offices, Legal Attachés, and the Department of Homeland Security were
included as entities to address terrorist financing.

TFOS Coordination with Other Agencies

        One of the key objectives of TFOS is to coordinate joint participation,
liaison, and outreach efforts so that the FBI appropriately utilizes the
financial information resources of private, government, and foreign entities.
To accomplish this objective, TFOS engages in various programs and
initiatives with the private sector, intelligence community, and international
community. We reviewed these programs and initiatives to assess the
extent to which TFOS engages in appropriate coordination.

       One of the FBI’s goals in establishing TFOS was to form an
international law enforcement body to address terrorist financing. Thus,
TFOS engages in extensive coordination with authorities of numerous foreign
governments in terrorist financing matters that leads to joint investigative
efforts throughout the world. Through international and government liaison
efforts, TFOS established partnerships with foreign law enforcement. For
example, the FBI established a Joint Task Force on Terrorism Financing with
Saudi Arabia. A TFOS staff member also has been assigned to London’s New
Scotland Yard Metropolitan Police Department’s National Terrorist Financing
Investigation Unit.

       The FBI also participates in the Terrorist Financing Working Group, led
by the Department of State, which coordinates government efforts to
identify, prioritize, assess, and assist countries whose financial systems are
vulnerable to terrorist exploitation. 28 Regarding training, TFOS staff
members are often presenters at state-funded training conferences. TFOS
also developed a specific financing and money laundering crimes curriculum

      28
           The Terrorist Financing Working Group includes members from the Departments
of State, the Treasury, Justice, and Homeland Security.

                                          37

for international training, which includes topics such as: (1) acquiring and
handling evidence in a document-intensive financial investigation, (2) major
case management techniques, (3) forensic examination tools, and
(4) methods of terrorist financing. TFOS officials also represent the United
States in meetings with the Financial Action Task Force. 29

TFOS International Training

      The FBI’s Legal Attaché offices or “Legats” assist it in addressing the
global nature of terrorist financing. As of April 2011, there were 63 FBI
Legal Attaché offices working with foreign law enforcement and security
agencies to coordinate investigations of interest to both the host country and
the United States. 30 The FBI uses the Legal Attaché offices’ expertise to
make use of the financial information from international law enforcement.
TFOS staff members, along with the Legal Attaché offices, conduct training
to foreign countries on financial-related investigative techniques.

      International training is a key program of the FBI’s international
operations to enhance information sharing. International training teaches
foreign law enforcement officers how to perform basic and advanced
investigative techniques and principles that promote cooperation and aid in
the collection of evidence. According to the Section Chief of the Office of
International Operations, Legal Attachés first identify the need for training
regarding terrorist financing matters in their host countries. TFOS
conducted 15 of these international training sessions in 13 countries in 2009
and 21 international training sessions in 17 countries in 2010.

Counterterrorism Squad on Joint Terrorism Task Force

       Through the Joint Terrorism Task Forces (JTTF), local, state, and
federal law enforcement agencies work together to address terrorism on a
regional scale. Over 600 state and local agencies and 50 federal agencies
participate in the JTTFs, which have more than 4,000 members nationwide.
The FBI leads each JTTF in investigating terrorist activities that include
terrorist financing activities. FBI agents, analysts, and other professional
support staff join with task force officers to form counterterrorism squads.



       29
          The Financial Action Task Force (FATF) is an inter-governmental body whose
purpose is the development and promotion of national and international policies to combat
money laundering and terrorist financing. The FATF is a policymaking body that works to
generate the necessary political will to bring about legislative and regulatory reforms in
these areas. The FATF has published 49 recommendations to meet this objective.
       30
            Appendix III provides a global map of the locations for the Legat offices.

                                               38

       Non-FBI JTTF members are assigned to and serve as co-lead agents on
counterterrorism squads. They function similarly to assigned FBI Special
Agents in that they attend squad meetings and have their own caseloads.
We interviewed 35 personnel from non-FBI JTTF member agencies during
our fieldwork at 8 FBI field offices, as illustrated in Exhibit 9. When asked
about TFOS involvement in their work, one non-FBI JTTF member told us he
had received training from TFOS. Two members said that they had reached
out to TFOS for help on a case. In one of these cases, the member sent
case information to TFOS, but 6 months later was informed TFOS could not
help. The other member said he was still waiting for TFOS assistance.

      Exhibit 7: List of Law Enforcement Agencies Interviewed
FBI Field Office                 Law Enforcement Agency
Atlanta Field Office             Atlanta Police Department
Chicago Field Office             Chicago Police Department
                                 Alcohol, Tobacco, Firearms, and
                                   Explosives
                                 Homeland Security Investigations
                                 Internal Revenue Service
                                 U.S. Coast Guard
                                 U.S. Customs and Border Protection
                                 U.S. Secret Service
Detroit Field Office             Dearborn Police Department
                                 Detroit Police Department
                                 Immigration and Customs
                                   Enforcement
                                 Internal Revenue Service
                                 U.S. Customs and Border Protection
Houston Field Office             Houston Police Department
                                 Immigration and Customs
                                   Enforcement
                                 Internal Revenue Service
                                 U.S. Customs and Border Protection
Los Angeles Field Office         Alcohol, Tobacco, Firearms and
                                   Explosives
                                 Drug Enforcement Administration
                                 Immigration and Customs
                                   Enforcement
                                 Internal Revenue Service
                                 Los Angeles Police Department




                                     39

Miami Field Office                          City of Boca Raton Police Department
                                            City of Miami Police Department
                                            Florida Department of Environment
                                              Protection
                                            Internal Revenue Service
                                            Miami-Dade Police Department
                                            Miramar Miami Police Department
New York Field Office                       Immigration and Customs
                                              Enforcement
                                            Internal Revenue Service
                                            New York Police Department
                                            U.S. Secret Service
Source: OIG JTTF Member Interviews

Immigration and Customs Enforcement

       In May 2003, the Attorney General and the Department of Homeland
Security (DHS) signed a Memorandum of Agreement (MOA) to resolve
conflict, clarify the terrorist financing activities and investigations between
the FBI and DHS, and increase information sharing and coordination.
According to FBI congressional testimony, the MOA addressed the
importance of waging a seamless, coordinated campaign against sources of
terrorist financing. In response to the September 11 terrorist attacks, the
U.S. Customs Service conducted money laundering and financial crimes
investigations. 31 The FBI and U.S. Immigration and Customs Enforcement
(ICE) were to detail appropriate personnel to each other’s agency and
develop specific collaborative procedures to determine whether applicable
ICE investigations or financial crime leads may be related to terrorism or
terrorist financing. The MOA and its related procedures specified that the
FBI was to have the lead role in investigating terrorist financing. ICE was to
pursue terrorist financing solely through participation in FBI-led task forces,
except as expressly approved by the FBI. Under the MOA, any investigation
with a nexus to terrorism that originates at the DHS is transferred to the
FBI.

      To determine whether ICE financial cases may be related to terrorism
or terrorist financing, TFOS and ICE established a Joint Vetting Unit to



       31
           In 2001, the Department of the Treasury established Operation Green Quest to
expand existing counterterrorist efforts by targeting current terrorist funding sources and
identifying possible future sources. It also targeted fraudulent charities and the shipment of
bulk cash. The U.S. Customs Service was once under the Department of the Treasury. In
March 2003, the U.S. Customs Service transferred to the Department of Homeland Security.


                                             40

minimize conflict and coordinate investigations and projects. 32 According to
the MOA, a supervisory ICE agent is detailed to TFOS as a Deputy Section
Chief and an FBI Supervisory Special Agent is detailed to ICE in its financial
crimes division. This cross management is intended to ensure that each
agency has access to all information and that agents are fully integrated in
the daily efforts to address terrorist financing.

       We interviewed the Deputy Section Chief ICE agent detailed to TFOS.
The agent told us that the Joint Vetting Unit is working well at the national
level and there had not been any complaints from the JTTF staff regarding
case conflicts or sharing. The Deputy Section Chief also told us that ICE has
increased FBI access to its databases. In addition to the ICE and Customs
and Border Protection databases, ICE began providing information from the
Transportation Security Administration databases to the FBI. The FBI
continues to share its databases with ICE agents located in the JTTFs.

       Based on the details included in the preceding paragraphs, we believe
that the FBI and ICE have established a reasonable and beneficial
information-sharing arrangement, sharing information at the headquarters
level and within the JTTFs.

NSD Coordination and Sharing Efforts

       The Department’s National Security Division is responsible for ensuring
the coordination of all national security matters among the Department’s
components, including the U.S. Attorneys’ Offices and the FBI. NSD
intelligence analysts are briefed daily on FBI intelligence. While the NSD
does not operate programs or activities specific to terrorist financing, it
includes terrorist financing within the scope of its counterterrorism activities.
The following section describes the NSD’s national coordination efforts.

Anti-Terrorism Advisory Council

       In September 2001, the Department directed each U.S. Attorney’s
Office to form an Anti-Terrorism Advisory Council (ATAC) and directed
prosecutors to invite federal and local law enforcement agencies to join the
ATAC. The ATAC coordinates specific anti-terrorism initiatives, provide
training, and facilitate information sharing with state and local authorities in
each federal district in the United States.


       32
          The Joint Vetting Unit is comprised of ICE and FBI staff that has joint access to
FBI and ICE databases. This staff conducts reviews of persons under investigation or other
leads to determine whether a potential nexus to terrorism exists.


                                            41

      The NSD’s Counterterrorism Section leads the ATAC program and
works with the coordinators in each district to form a nationwide
information-sharing network. The ATAC program provides training to state
and local law enforcement officials. Other FBI Counterterrorism officials also
speak during the annual ATAC conferences.

       We interviewed the National ATAC coordinator and seven ATAC
coordinators representing the Eastern District of Michigan; the Southern
Districts of Florida, Texas, New York, and California; and the Northern
Districts of Illinois and Georgia. The ATAC coordinators interact regularly
with the NSD on the status of counterterrorism investigations and
investigative strategies for particular cases. Three of the seven ATAC
coordinators we interviewed had worked on terrorist financing cases. The
ATAC coordinators told us that the NSD is helpful and they are satisfied with
the NSD’s assistance.

Designation of Terrorist Groups

        On behalf of the Attorney General, the NSD assists the Departments of
State and the Treasury in designating individuals, groups, or entities as
terrorists to freeze their assets or property in order to prevent the
commission of future terrorist acts. 33 Ultimately, the terrorist designation
denies individuals or organizations access to the U.S. financial system and it
notifies the public and the world that these parties are engaged in
supporting terrorism or are associated with terrorists and their
organizations. Designation is intended to counter terrorism by exposing
terrorist financing money trails that may generate leads to previously
unknown terrorist cells and financiers. In addition, designation can
potentially dismantle terrorist financing networks by encouraging designated
persons to disassociate themselves from terrorist activity and renounce their
affiliation with terrorist groups and their support networks. The Secretary of
State is primarily responsible for the designation of Foreign Terrorist
Organizations (FTO), under the authority of section 219 of the Immigration
and Nationality Act.

       FTO designations are made after an extensive interagency review
process in which information about an entity’s activity, taken both from
classified and open sources, are scrutinized. The NSD, which represents the

       33
           The designation process involves having a reasonable basis or reasonable grounds
to suspect or believe that an individual or organization is a terrorist, one who finances
terrorism, or a terrorist organization. Upon identification, a freeze is placed on the
individual’s or organization’s assets or property to prevent the commission of future terrorist
acts.


                                             42

Department, along with the Departments of State and Treasury, work with
the federal intelligence community to closely review a detailed administrative
record that documents the terrorist activity of the proposed designee to
ensure that the record supports adequately the factual findings required by
the applicable authority and to assess litigation risk in the event a
designation subsequently is challenged by the designated entity. The
designation of an entity as an FTO is made based on information contained
in the administrative record. The administrative record is a compilation of
classified and unclassified information that demonstrates whether the
statutory criteria for designation have been satisfied. The Department of
State notifies Congress 7 days before publishing an FTO designation in the
Federal Register. As of January 2012, there were 49 FTO designations.

       An official from the Department of State, Office of Law Enforcement
and Intelligence, Office of the Legal Advisor, described the working
relationship between the Department of State and the NSD as good. This
attorney told us the NSD reviews the administrative record of proposed
designees in a timely manner. In instances of non-concurrence during the
first review, the NSD and the Departments of State and Treasury work
together to revise the administrative record to ensure that the case for
designation is legally sufficient and can withstand judicial challenge.

      The Departments of State and Treasury share the responsibility for
designations of Specially Designated Global Terrorists (SDGT), including
those done under Executive Order 13224 issued pursuant to the
International Emergency Economic Powers Act. Designation as an SDGT
permits the prosecution of a person who willfully engages in unlicensed
financial transactions with designated persons and organizations and
authorizes the Department of the Treasury to block assets and freeze bank
accounts of those designated groups and individuals.

      As of December 31, 2010, the SDGT list of 578 individuals and entities
includes all of the organizations on the State Department’s FTO list. Unlike
the FTO list, the SDGT list of designated entities is not limited to foreign
groups.
      Based on our review, it appears that the NSD has appropriate
processes in place to coordinate efforts regarding terrorist financing. The
NSD’s Counterterrorism Section is sharing information on different levels
within the Department and is communicating with agencies outside of the
Department.




                                     43

FBI and NSD Joint Coordination and Sharing Efforts

       The Attorney General’s Guidelines for Domestic FBI Operations require
the FBI to consult regularly with the NSD to exchange advice and
information concerning threats to national security. The guidelines also
require the FBI to: (1) notify the NSD of full investigations that involve
foreign intelligence collection or investigations of U.S. persons in relation to
threats to national security; (2) provide the NSD information about its
foreign intelligence collection program, including information regarding the
scope and nature of foreign intelligence collection activities in each FBI field
office; and (3) provide the NSD access to information obtained in national
security or foreign intelligence activities. The Assistant Attorney General for
National Security also has the general authority to obtain reports from the
FBI concerning these activities.

      We interviewed NSD officials to determine the extent to which they
coordinate and share information with the FBI. We found that intelligence
and investigative information is shared at multiple management levels within
the NSD and elsewhere within the Department. The Attorney General, the
Deputy Attorney General, the FBI Director, and the Assistant Attorney
General for National Security meet every morning to receive a threat briefing
and to discuss ongoing investigations. NSD attorneys and FBI supervisors
meet weekly with FBI counterparts to discuss pending matters and
investigative strategies in particular cases. NSD officials hold regular
meetings with the FBI to discuss terrorism-related matters where they
advise the FBI on their terrorist investigations in matters such as
determining which legal tools to use to collect and preserve evidence.
Additionally, NSD officials participate in two daily intelligence meetings with
other federal agencies that make up the federal intelligence community,
including the FBI.

Coordination with State and Local Agencies

     The NSD provides training, general intelligence information, and legal
guidance to state and local agencies through its Anti-Terrorism Advisory
Council program, as described earlier in this report.

Terrorism Prosecutions

       In coordination with the FBI and the U.S. Attorneys’ Offices, the NSD
assists in the investigation and prosecution of terrorist financing cases by
serving as the principal legal advisor concerning questions of law,
regulations, and guidelines as well as the legality of domestic and overseas
intelligence operations.


                                       44

      Criminal prosecution is a part of the NSD’s counterterrorism program.
Through its expanded use of criminal statutes available in the federal
criminal code, the NSD seeks to use criminal charges available in the federal
criminal code to obtain criminal convictions, thereby intervening at the early
stages of terrorist planning before a terrorist act occurs. The NSD also
authorizes the use of a variety of other methods to prevent terrorist acts
from occurring, such as making an arrest or bringing immigration charges.

      The material support statutes, 18 U.S.C. §§ 2339A and 2339B, which
criminalize the act of knowingly providing support and engaging in financial
transactions with terrorists, are a means of disrupting United States-based
terrorist supporters and are central to the NSD’s efforts to prosecute
terrorist financing cases. The NSD draws upon other criminal statutes
available in the federal criminal code based upon the facts and circumstance
of each case. 34

      From September 11, 2001, to March 18, 2010, the NSD reports that it
has been involved in 104 unsealed terrorism-related convictions based on
federal criminal statutes prohibiting certain financial transactions, money
laundering, and providing material support to terrorists and terrorist
organizations, as listed in Appendix V. 35

Conclusion

        FBI and NSD efforts against terrorist financing involve working with
federal, state, local, and international entities through programs and
initiatives that provide operational support and legal guidance. These
coordination and sharing efforts increase terrorist financing training,
supports communication between agencies, and designate organizations who
seek to commit or support terrorist acts. Our audit work indicates the
existence of appropriate coordination and sharing efforts to strengthen
partnerships with agencies. Such partnerships may further the
Department’s achievement of its first goal, to prevent terrorist operations
before they occur.




      34
           Appendix V lists these criminal statutes.

      35
           Unsealed records are court decisions that are available for public review.


                                              45

              STATEMENT ON INTERNAL CONTROLS

      As required by the Government Auditing Standards, we tested, as
appropriate, internal controls significant within the context of our audit
objectives. A deficiency in an internal control exists when the design or
operation of a control does not allow management or employees, in the
normal course of performing their assigned functions, to timely prevent or
detect: (1) impairments to the effectiveness and efficiency of operations,
(2) misstatements in financial or performance information, or (3) violations
of laws and regulations. Our evaluation of FBI and NSD internal controls
were not made for the purpose of providing assurance on its internal control
structure as a whole. FBI and NSD management are responsible for the
establishment and maintenance of internal controls.

      Through our audit testing, we did not identify deficiencies in the FBI’s
and NSD’s internal controls that were significant within the context of the
audit objectives and that, based upon the audit work performed, we believe
would affect the FBI’s and NSD’s ability to effectively and efficiently operate,
to correctly state financial and performance information, and to ensure
compliance with laws and regulations.

      Because we are not expressing an opinion on the FBI’s or NSD’s
internal control structure as a whole, this statement is intended solely for
the information and use of the FBI and NSD. This restriction is not intended
to limit the distribution of this report, which is a matter of public record.




                                       46

               STATEMENT ON COMPLIANCE WITH

                   LAWS AND REGULATIONS


      As required by the Government Auditing Standards we tested, as
appropriate given our audit scope and objectives, selected transactions,
records, procedures, and practices, to obtain reasonable assurance that the
FBI and NSD management complied with federal laws and regulations, for
which noncompliance, in our judgment, could have a material effect on the
results of our audit. The FBI’s and NSD’s management are responsible for
ensuring compliance with applicable federal laws and regulations. In
planning our audit, we identified the following laws and regulations that
concerned the operations of the FBI and NSD that were significant within the
context of the audit objectives:

     •   USA PATRIOT Improvement and Reauthorization Act of 2005
     •   International Emergency Economic Powers Act
     •   Section 219 of the Immigration and Nationality Act

     Our audit included examining, on a test basis, the FBI’s and NSD’s
compliance with the aforementioned laws and regulations that could have a
material effect on the FBI’s and NSD’s operations, through interviewing
personnel, analyzing data, assessing internal control procedures, and
examining procedural practices. Nothing came to our attention that the FBI
and NSD did not comply with the aforementioned laws and regulations.




                                    47

                                                                APPENDIX I

           Audit Objectives, Scope, and Methodology

Objectives

      The objectives of this audit were to determine if the FBI and NSD:
(1) have implemented appropriate programs to identify, investigate, and
prosecute terrorist financing activities; and (2) appropriately coordinated
and shared information regarding terrorist financing operations.

Scope and Methodology

      We conducted this performance audit in accordance with Generally
Accepted Government Auditing Standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives. We performed fieldwork at FBI and NSD Headquarters located in
Washington, D.C., and the following FBI field offices:

      Atlanta Field Office                  Atlanta, Georgia
      Chicago Field Office                  Chicago, Illinois
      Detroit Field Office                  Detroit, Michigan
      Houston Field Office                  Houston, Texas
      Los Angeles Field Office              Los Angeles, California
      Miami Field Office                    Miami, Florida
      New York Field Office                 New York, New York
      Washington Field Office               Washington, D.C.

       We selected field offices based on the amount of time Special Agents
recorded performing counterterrorism activities for FY 2010. From the 10
offices with the highest level of recorded counterterrorism activity, we
selected 7 offices from diverse locations throughout the United States. In
addition, we also selected the Atlanta Field Office because of its close
proximity to the OIG Atlanta Regional Audit Office that conducted this audit.

     The audit focused on the FBI’s National Security Branch,
Counterterrorism Division, and Terrorist Financing Operations Section
(TFOS) and the National Security Division’s Counterterrorism Sections.




                                      48

      To accomplish the audit objectives, we interviewed FBI and NSD
Headquarters officials regarding their approach to address terrorist financing
and their efforts to coordinate and share information on terrorist financing
operations.

       To determine the extent to which Special Agents used TFOS’s
recommended financial-related investigative techniques and opened the
mandatory sub-files, we reviewed case files at FBI field offices in Atlanta,
Chicago, Detroit, Houston, Los Angeles, Miami, New York, and
Washington, D.C. We began our testing in the Atlanta and Washington, D.C.
field offices where we initially selected a judgmental sample of 35 and a
random sample of 15 counterterrorism cases during FY 2006 through
FY 2010.

      Based on that initial work, we refined our sampling and testing
technique. For each of the remaining six FBI field offices, we obtained a
universe of opened and closed counterterrorism cases for FY 2008 through
FY 2010. For each of the 6 offices, we elected to test 9 cases from each of
the 3 fiscal years, for a total of 27 cases for each office. As a result, we
elected to test 162 additional counterterrorism cases for the 6 offices. We
selected random numbers for our case sample and then used these random
numbers to select 27 case files from each of the 6 universes of
counterterrorism cases provided by the FBI. We required that each sample
for the six field offices include a minimum of five terrorist financing cases.
The FBI confirmed the designated terrorist financing cases include in our
sample.

      Our total sample for the 8 FBI field offices was 212. Of the 212
counterterrorism cases included in our sample, we could not test 3 cases for
the following reasons.

   •	 In the Los Angeles Field Office, the coordinator told us that the field
      office assigned an investigation case number based on information
      obtained from a legal attaché, but the office did not investigate the
      case and subsequently closed it without any action completed. 36

   •	 In the Miami Field Office, an FBI official told us the office inadvertently
      opened a counterterrorism case and performed no activity on it. We
      observed that the case file folder was stapled shut and no documents
      were inside the case file.


       36
         The FBI has offices worldwide called Legal Attachés or Legats located in U.S.
embassies. Appendix III shows a map of the Legat offices.


                                            49

   •	 In the New York Field Office, the office staff merged one case with
      another. There were no documents to review for one of the merged
      cases.

       We conducted a two-stage review of the 209 sampled case files.
During fieldwork, we performed an initial review of the sampled case files for
documentary support. The FBI subsequently provided additional
documentation and we performed a second review of the sampled case files.
Our sampling design and methodology was not designed to project our audit
test results to the universe counterterrorism cases.

       The NSD is responsible for coordinating the Department’s national
security efforts among the components of the Department, the intelligence
community and other federal agencies; state, local, and foreign
governments; and outside organizations. We interviewed officials within the
Department, the Department of State, and U.S. Attorneys’ Offices to discuss
their relationships with the NSD.




                                     50

                                                     APPENDIX II

                     Abbreviations

Abbreviation                      Description
   ATAC        Anti-Terrorism Advisory Council
     CTD       Counterterrorism Division
     CPI       Crime Problem Indicator
    DHS        Department of Homeland Security
    FATF       Financial Action Task Force
     FBI       Federal Bureau of Investigation
  FinCEN       Financial Crimes Enforcement Network
     FTO       Foreign Terrorist Organization
    GAO        Government Accountability Office
     HLF       Holy Land Foundation for Relief and Development
     ICE       U.S. Immigration and Customs Enforcement
   IEEPA       International Emergency Economic Powers Act
    ITOS       International Terrorism Operations Section
    JTTF       Joint Terrorism Task Force
    MOA        Memorandum of Agreement
    NSD        National Security Division
     OIG       Office of the Inspector General
     SAR       Suspicious Activity Report
   SDGT        Specially Designated Global Terrorist
   TFOS        Terrorist Financing Operations Section
   TFRG        Terrorism Financing Review Group




                             51

                                                               APPENDIX III

                         FBI Legal Attaché Offices




Africa                         Asia                           Europe
Algiers, Algeria               Bangkok, Thailand              Berlin, Germany
Addis Ababa, Ethiopia          Beijing, China                 Bern, Switzerland
Cairo, Egypt                   Canberra, Australia            Brussels, Belgium
Dakar, Senegal                 Hong Kong, China               Copenhagen,
Freetown, Sierra Leone         Jakarta, Indonesia              Denmark
Lagos, Nigeria                 Kuala Lumpur, Malaysia         London, England
Nairobi, Kenya                 Manila, Philippines            Madrid, Spain
Pretoria, South Africa         New Delhi, India               Paris, France
Rabat, Morocco                 Phnon Penh, Cambodia           Rome, Italy
                               Seoul, South Korea             The Hague,
Americas                       Singapore, Singapore            Netherlands
Bogota, Columbia               Tokyo, Japan                   Vienna, Austria
Brasilia, Brazil
Bridgetown, Barbados           Eurasia                        Middle East
Buenos Aires, Argentina        Astana, Kazakhstan             Abu Dhabi, UAE
Caracas, Venezuela             Ankara, Turkey                 Amman, Jordan
Mexico City, Mexico            Athens, Greece                 Baghdad, Iraq
Ottawa, Canada                 Bucharest, Romania             Doha, Qatar
Panama City, Panama            Budapest, Hungary              Islamabad, Pakistan
Santiago, Chile                Kyiv, Ukraine                  Kabul, Afghanistan
Santo Domingo, Dom. Republic   Moscow, Russia                 Riyadh, Saudi Arabia
San Salvador, El Salvador      Sarajevo, Bosnia-Herzegovina   Sanaa, Yemen
                               Sofia, Bulgaria                Tel Aviv, Israel
                               Tallinn, Estonia
                               Tbilisi, Georgia
                               Warsaw, Poland
Source: FBI website

                                       52

                                                                 APPENDIX IV

               Designated Foreign Terrorist Organizations

  1.	   Abu Nidal Organization (ANO)            27.	 Moroccan Islamic Combatant Group
  2.	   Abu Sayyaf Group (ASG)                       (GICM)
  3.	   Al-Aqsa Martyrs Brigade (AAMS)          28.	 Mujahedin-e Khalq Organization
  4.	   Al-Shabaab                                   (MEK)
  5.	   Ansar al-Islam (AAI)                    29.	 National Liberation Army (ELN)
  6.	   Asbat al-Ansar                          30.	 Palestine Liberation Front (PLF)
  7.	   Aum Shinrikyo (AUM)                     31.	 Palestinian Islamic Jihad (PIJ)
  8.	   Basque Fatherland and Liberty (ETA)     32.	 Popular Front for the Liberation of
  9.	   Communist Party of the
                      Palestine (PFLP)
        Philippines/New People’s Army
          33.	 PFLP – General Command (PFLP – GC)
        (CPP/NPA)
                              34.	 al-Qaida in Iraq (AQI)
10.	    Continuity Irish Republican Army        35.	 al-Qa’ida
        (CIRA)                                  36.	 al- Qa’ida in the Arabian Peninsula
11.	    Gama’a al-Islamiyya (Islamic Group)          (AQAP)
12.	    HAMAS (Islamic Resistance               37.	 al-Qaida in the Islamic Maghreb
        Movement)                                    (formerly GSPC)
13.	    Harakat ul-Jihad-i-Islami/Banglasdesh   38.	 Real IRA (RIRA)
        (HUJI-B)                                39.	 Revolutionary Armed Forces of
14.	    Harakat ul-Mujahidin (HUM)                   Colombia (FARC)
15.	    Hizballah (Party of God)                40.	 Revolutionary Organization 17
16.	    Islamic Jihad Union (IJU)                    November (17N)
17.	    Islamic Movement of Uzbekistan (IMU)    41.	 Revolutionary People’s Liberation
18.	    Jaish-e-Mohammed (JEM) (Army of              Party/Front (DHKP/C)
        Mohammed)                               42.	 Revolutionary Struggle (RS)
19.	    Jemaah Islamiya organization (JI)       43.	 Shining Path (Sendero Luminoso, SL)
20.	    Kahane Chai (Kach)                      44.	 United Self-Defense Forces of
21.	    Kata’ib Hizballah (KH)                       Colombia (AUC)
22.	    Kongra-Gel (KGK, formerly Kurdistan     45.	 Harakat-ul Jihad Islami (HUJI)
        Worker’s Party, PKK, KADEK)             46.	 Tehrik-e Taliban Pakistan (TTP)
23.	    Lashkar-e Tayyiba (LT) (Army of         47.	 Jundallah
        Righteous)                              48.	 Army of Islam (AOI)
24.	    Lashkar i Jhangvi (LJ)
25.	    Liberation Tigers of Tamil Eelam
        (LTTE)
26.	    Libyan Islamic Fighting Group (LIFG)

 Source: Department of State website




                                          53

                                                      APPENDIX V

Terrorist Statutes Applicable to Financial Transactions,

  Money Laundering, Material Support to Terrorists,

              and Terrorist Organizations 

    United States Code                Description
    18 U.S.C. § 226     Bribery affecting port security
    18 U.S.C. § 832(a)  Participation in the development of
                        nuclear and other weapons of mass
                        destruction by terrorists
    18 U.S.C. § 981     Assets of terrorists organizations
    18 U.S.C. § 1956    Laundering of monetary instruments
    18 U.S.C. § 1957    Engaging in monetary transactions in
                        property derived from specified
                        unlawful activity
    18 U.S.C. § 1960    Unlicensed money transmitting
                        businesses
    18 U.S.C. § 2284    Transportation of terrorists
    18 U.S.C. § 2332d   Financial transactions with terrorists
    18 U.S.C. § 2339    Harboring terrorists
    18 U.S.C. § 2339A   Providing material support to
                        terrorists
    18 U.S.C. § 2339B   Providing material support to
                        designated terrorist organizations
    18 U.S.C. § 2339C   Terrorist financing
    18 U.S.C. § 2339D   Receiving military training from a
                        financial terrorist organization
    31 U.S.C. § 5322(a) Currency smuggling
    21 U.S.C. § 960a    Narcoterrorism
    28 U.S.C. § 2641(c) Criminal forfeiture
    50 U.S.C. § 1701    Unusual and extraordinary threat;
                        declaration of national emergency;
                        exercise of Presidential authorities
    50 U.S.C. § 1702    Presidential authorities
    50 U.S.C. § 1705(b) International Emergency Economic
                        Power Act violations/ transactions
                        with designated groups

   Source: NSD




                                54

                                                                                      APPENDIX VI

     THE FEDERAL BUREAU OF INVESTIGATION’S
      RESPONSE TO THE DRAFT AUDIT REPORT


                                                    U.S.   Dep.rtm~Dt   of Justice

                                                    Fctkral Bureau of Investigation


                                                    Washington, D. C. 20535-0001

                                                    March 111, 2013


The Honorable Michael E. Horowitz
Inspector General
Office: of the Inspector General
U. S. Department of Justice:
950 Pennsylvania Avenue, N.W.
Washington, DC 20530

Dear Mr. Horowitz:

       The Federal Bureau of Investigation (FBI) appreciates the opportunity to review and
respond to your office's report entitled, Audit ofthe Federal Bureau of Investigation's and the
National Securiry Division's Efforts to Coordinate and Address Terrorist Financing
(hereinafter. "Report").

        We are plcased you found, "the FBI and NSD have mechanisms to ensure terrorist
financing-related information is shared and coordinated with each other and with other law
enforcement organizations and intelligence agencies." As noted, ''these coordination efforts
increase terrorist fmancc training, supports communication between agencies, and designate
organizations who seek to commit or support terrorist acts."

        The FBI continues to evaluate and strategize on ways to improve the mission of the
Terrorist Financing Operations Section (TFOS). As briefly mentioned in the Report, the FBI
restructured TIOS beginning in December 2010. Since that time, FBI efforts to e1lpioit financial
intelligence information has increased far beyond your cillie sampling, which examined
counterterrorism cases between fiscal years 2006 through 20 i O.

       In conclusion, we concur with your eight recommendations. Please flOd enclosed our
responses. Should you have any questions, feel free to contact me.


                                                     Sincercl,,-,~--"




                                                         rew G. McCabe
                                                     Assistant Director
                                                     Countaterrorism Division

Enclosures (2)




                                              55

              FBI RESPONSES TO THE OIG REC OMMENDATIONS RE
             THE FEDERAL BUREAU OF INVESTIGATION'S AND THE
 ,.     ", NATIONAL SECURITY DIVISION'S EFFURTS TO COORDINATE
                     AND ADDRESS TERRORJST F1NANC ING




Recommendation 1: Ensure Special Agents appropriately doc ument their use of all financial­
related investigative techniques for all counterterrorism investigations.

FBI Response: Concur - The FBI's Counterterrorism Division (CTD), Terrorist Financing
Operations Section (TFOS), will provide updated guidance to Special Agents, Intclligenee
Analysts, Forensic Accountants and Task Force Officers on the appropriate use and
documentation of financial-related investigative te<:hniques for countertCITOrism investigations.

RecommendaUon 1: Consider requiring Special Agents to document the valid reasons for not
usi ng the six: basic fi nancial-related investigative techniques for all counterterrorism
investigations.

FBI Response: Concur· Updat¢d guidance will be provided by TFOS to Special Agents,
Intelligence Analysts, Forensic Aceountants and Task Force Officers regarding the use and
documentation of financial-related techniques. The guidance will balance investigative
necessity, program management requirements., and administrative burden.

Recommendation 3: Ensure Special Agents adhere to the requi rement for the creation of the
mandatory finaneial investigative sub-file for all counterterrorism investigations.

FBI Response: Concur - As per Section 4.8 of the CfD Policy implementation Guide, the
TERRFIN subtile is mandatory in any CT investigation when investigators receive terrorism
financing intelligence on the subject or conduct investigative activities regarding the subject's
fi nancial background . This subfile must be used to maimain financial records and documents
generated as a result orany financial analysis or intelligence collected on a subj ect's financial
activities. TFOS will monitor counterterrorism investigations to cnsure compliance with the stated
policy.

Recommendation 4 : Ensure that Special Agents in the field offices with responsibility for
counterterrorism investigations receive on-going training regarding financial-related
investigative techniq ues.

FBI Response: CODcur - In coordination with the Training Division, CTD and TFOS will
ensure Special Agents., InteJligcnce Analysts, Forensic Accountants and Task Force Officers
receive infonnation and guidance on the use of financial-related investigative techniques.




                                              56

Rerommaad ••loD S: Clearly define the ro les, responsibilities, and expectations of the Terrorist
Financing Coordinators.

FBi'Re;PoDR: Concur - TFOS is in the process of assessing the Terrorist Financing
Coordinator (TFC) duties and responsibilities as the position was originally established II years
ago prior to TFOS assumi ng case management responsibilities. Upon completion of the review
of the position, TFOS will provide updated guidance regarding the TFC position to the field . To
streamline and better coordi nate terrorist fi nancing cases, consideration is being given to
eliminati ng the position.

Recommend, tion 6: Develop, implement, and document fonnal methods to evaluate the
Terrorist Financing Coordinator Conference and other training provided to Coordinators.

F81 Response: Concur. As indicated above in respo nse 10 #5, TFOS is assessing the c urrent
duties and responsibilities of the TFCs.

RttommendllioD 7: Ensure thallhere are appropriate wrinen qualifications and training for the
field offices' selection ofa Terrorist Financing Coordinator as defined by TFOS.

FBI Response: Concur. As indicated above in response to #5, TFOS is assessi ng the current
duties and responsibilities of the TFCs.

Reoommcpd.!lop 8 : Ensure that management de velops a consistent approach for field offices
to include financial-related focus and organization for all counterterrorism invest igations.

FBI Response: COIlcur - Through the FBI's CfD program management efforts, TFOS will
continue to provide guidance, instruction and assistance in identifying and utilizing financial
intelligence infonnation in counterterrorism investigations. Following the focus and realignment
ofTFOS in 20 11 to an operational section, CTD saw an increase in the awareness and utility of
fi nancial intelligence in all types of counterterrorism investigations. For example, relevant
financial information is proactively pushed out to investigators o n a reguler basis, a significant
improvement over the previous standard of pulling financial data reac tively to support
investigative efforts. Active program management ofterrori5m financing and threat cases is
conducted in a coordinated fashion between CTDITFOS, field offices, Joint Terrorism Task
Forces, and Intelligence Conununity partners. Performance measures are in place for TFOS
persoJUlel to ensure that the appropriate level of program management and oversight is
conducted.




                                               57

                                                            APPENDIX VII

  OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND
SUMMARY OF ACTIONS NECESSARY TO CLOSE THE REPORT


      The OIG provided a draft of this audit report to the FBI and NSD. The
FBI’s response is incorporated in Appendix VI of this report. NSD did not
provide a formal response but did provide technical comments that are
incorporated into the body of this report. The following provides the OIG’
analysis of the response and summary of actions necessary to close the
report.

Recommendation Number:

1. Resolved. The FBI concurred with our recommendation to ensure
   Special Agents appropriately document their use of all financial-related
   investigative techniques for all counterterrorism investigations. The FBI
   stated in its response that the Terrorist Financing Operations Section
   (TFOS) will provide updated guidance to Special Agents, Intelligence
   Analysts, Forensic Accountants and Task Force Officers on the appropriate
   use and documentation of financial-related investigative techniques for
   counterterrorism investigations.

   This recommendation can be closed when we receive documentation of
   the updated guidance on the appropriate use and documentation of
   financial-related investigative techniques.

2. Resolved. The FBI concurred with our recommendation to consider
   requiring Special Agents to document the valid reasons for not using the
   six basic financial-related investigative techniques for all counterterrorism
   investigations. The FBI stated in its response that TFOS will provide
   updated guidance to Special Agents, Intelligence Analysts, Forensic
   Accountants and Task Force Officers regarding the use and
   documentation of financial-related techniques, and that the guidance will
   balance investigative necessity, program management requirements, and
   administrative burden.

   This recommendation can be closed when we receive documentation of
   the updated guidance on the appropriate use and documentation of
   financial-related investigative techniques, including the requirement to
   document valid reasons for not using the six basic financial-related


                                      58

   investigative techniques for all counterterrorism investigations or a

   written explanation of why such a requirement will not be issued.


3. Resolved. The FBI concurred with our recommendation to ensure
   Special Agents adhere to the requirement for the creation of the
   mandatory financial investigative sub-file for all counterterrorism
   investigations. The FBI stated in its response that the sub-file is
   mandatory in any counterterrorism investigation when investigators
   receive terrorism financing intelligence on the subject or conduct
   investigative activities regarding the subject’s financial background. The
   FBI stated that TFOS would monitor counterterrorism investigations to
   ensure compliance with the stated policy.

   This recommendation can be closed when we receive documentation of
   the procedures in place to ensure compliance with the requirment.

4. Resolved. The FBI concurred with our recommendation to ensure that
   Special Agents in the field offices with responsibility for counterterrorism
   investigations receive on-going training regarding financial-related
   investigative techniques. The FBI stated in its response that the Training
   Division, Counterterrorism Division, and TFOS will ensure Special Agents,
   Intelligence Analysts, Forensic Accountants and Task Force Officers
   receive information and guidance on the use of financial-related
   investigative techniques.

   This recommendation can be closed when we receive documentation of
   the information and guidance on the use of financial-related investigative
   techniques the Training Division, Counterterrorism Division, and TFOS will
   provide to Special Agents, Intelligence Analysts, Forensic Accountants
   and Task Force Officers, as well as a documented timeframe detailing
   how often this information and guidance will be disseminated.

5. Resolved. The FBI concurred with our recommendation to clearly define
   the roles, responsibilities, and expectations of the Coordinator position.
   The FBI stated in its response that TFOS is in the process of assessing the
   Coordinator duties and responsibilities. After the review, TFOS will
   provide updated guidance regarding the Coordinator position to the field
   staff. The FBI stated that consideration is being given to eliminating the
   Coordinator position in an effort to streamline and better coordinate
   terrorist financing cases.

   This recommendation can be closed when we receive documentation of
   updated guidance clearly defining the roles, responsibilities, and


                                      59

   expectations of the Coordinator position to the field or documentation
   eliminating the position.

6. Resolved. The FBI concurred with our recommendation to develop,
   implement, and document formal methods to evaluate the Terrorist
   Financing Coordinator Conference and other training provided to
   Coordinators. The FBI stated in its response that TFOS is assessing the
   current duties and responsibilities of the Coordinators and will provide
   updated guidance regarding the Coordinator position to the field.

   This recommendation can be closed when we receive documentation of
   updated guidance on formal methods to evaluate the Terrorist Financing
   Coordinator Conference and other training provided to Coordinators or
   documentation eliminating the position.

7. Resolved. The FBI concurred with our recommendation to ensure that
   there are appropriate written qualifications and training for the field
   offices’ selection of a Coordinator as defined by TFOS. The FBI stated in
   its response that TFOS is assessing the current duties and responsibilities
   of the Coordinators and will provide updated guidance regarding the
   Coordinator position to the field.

   This recommendation can be closed when we receive documentation of
   updated guidance on appropriate written qualifications and training for
   the field offices’ selection of a Coordinator or documentation eliminating
   the position.

8. Resolved. The FBI concurred with our recommendation to ensure that
   management develops a consistent approach for field offices to include
   financial-related focus and organization for all counterterrorism
   investigations. The FBI stated in its response that TFOS will continue to
   provide guidance, instruction, and assistance in identifying and utilizing
   financial intelligence information in counterterrorism investigations. The
   FBI also stated that the Counterterrorism Division (CTD) saw an increase
   in the awareness and utility of financial information in all types of
   counterterrorism investigations following the focus and realignment of
   TFOS in 2011. The FBI stated in its response that active program
   management is conducted in a coordinated fashion between CTD/TFOS,
   field offices, Joint Terrorism Task Forces, and Intelligence Community
   partners and that performance measures are in place for TFOS personnel
   to ensure that the appropriate level of program management and
   oversight is conducted.



                                      60

This recommendation can be closed when we receive: (1) documentation
of polices in place to ensure that TFOS will continue to provide guidance,
instruction, and assistance in identifying and utilizing financial intelligence
information in counterterrorism investigations; (2) evidence of the
increase in awareness and utility of financial intelligence in all types of
counterterrorism investigations; (3) evidence of active program
management conducted in a coordinated fashion between CTD/TFOS,
field offices, Joint Terrorism Task Forces, and Intelligence Community
partners; and (4) documentation of performance measures in place to
ensure TFOS personnel conduct an appropriate level of program
management and oversight.




                                    61

